<html>
<title> - PASSENGER RAIL SAFETY: ACCIDENT PREVENTION AND ON-GOING EFFORTS TO IMPLEMENT TRAIN CONTROL TECHNOLOGY</title>
<body><pre>[Senate Hearing 114-125]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-125

               PASSENGER RAIL SAFETY: ACCIDENT PREVENTION
                   AND ON-GOING EFFORTS TO IMPLEMENT
                        TRAIN CONTROL TECHNOLOGY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-741 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 10, 2015....................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................     3
Statement of Senator Blunt.......................................    30
Statement of Senator McCaskill...................................    33
Statement of Senator Manchin.....................................    35
Statement of Senator Blumenthal..................................    38
Statement of Senator Peters......................................    39
Statement of Senator Booker......................................    42
Statement of Senator Cantwell....................................    43
Statement of Senator Markey......................................    45
Statement of Senator Klobuchar...................................    47
Statement of Senator Gardner.....................................    48
Statement of Senator Johnson.....................................    49

                               Witnesses

Hon. T. Bella Dinh-Zarr, PhD, MPH, Vice Chairman, National 
  Transportation Safety Board....................................     4
    Prepared statement...........................................     6
DJ Stadtler, Vice President of Operations, Amtrak................    15
    Prepared statement...........................................    16
Robert C. Lauby, Associate Administrator for Safety and Chief 
  Safety Officer, Federal Railroad Administration, U.S. 
  Department of Transportation...................................    18
    Prepared statement...........................................    20
Charles Mathias, Associate Chief, Wireless Telecommunications 
  Bureau, Federal Communications Commission......................    22
    Prepared statement...........................................    24

                                Appendix

Response to written questions submitted by Hon. Steve Daines to:
    DJ Stadtler..................................................    53
    Charles Mathias..............................................    53

 
                    PASSENGER RAIL SAFETY: ACCIDENT
                   PREVENTION AND ON-GOING EFFORTS TO
                   IMPLEMENT TRAIN CONTROL TECHNOLOGY

                              ----------                              


                        WEDNESDAY, JUNE 10, 2015

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Blunt, Ayotte, 
Fischer, Johnson, Gardner, Nelson, Cantwell, McCaskill, 
Klobuchar, Blumenthal, Markey, Booker, Manchin, and Peters.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. This hearing will come to order.
    As Ranking Member Nelson and I noted after the tragic 
derailment of Amtrak train 188 in Philadelphia last month, the 
victims, their families, and all those affected by the accident 
remain in our thoughts and prayers.
    We convene today's hearing to evaluate how we can assist 
railroads and passenger rail operators to prevent derailments 
like Amtrak 188 in the future.
    While the cause of this accident has not been officially 
determined, preliminary data from NTSB show that Amtrak 188 was 
traveling through the curve at Frankford Junction at a speed of 
106 miles per hour, despite the maximum authorized speed of 50 
miles per hour on that curve. Without question, speed was a 
factor in this derailment and human error may have contributed 
to the excessive speed, underscoring the importance of train 
control technology and other strategies to address this 
accident risk.
    Today we will hear from a panel of experts on accident 
prevention and train control, focusing in particular on 
positive train control. We know that automatic train control 
and older automatic braking technology was in effect on the 
southbound tracks at Frankford Junction, but not on the 
northbound tracks where the derailment occurred. Automatic 
train control protections, which are cheaper and quicker to 
implement than positive train control systems, may have made a 
critical difference in the Amtrak 188 derailment and have since 
been implemented by Amtrak at Frankford Junction.
    Amtrak is engaged in a complete survey of the Northeast 
Corridor to identify and implement other necessary automatic 
train control modifications. While additional automatic train 
control protections must be implemented immediately, where 
feasible and appropriate, positive train control is a more 
advanced, transformative safety technology that, when properly 
configured and fully operational, will more effectively prevent 
accidents. When it comes to more robust overspeed derailment, 
train-to-train collision prevention and work zone incursion, 
and misplaced switch protection, PTC offers critical safety 
benefits that are simply not achieved through any other 
existing technology.
    While I fully support the implementation of PTC, for years 
I have noted the complexity of its full implementation for both 
passenger and certain freight railroads. The mandate covers 
over 60,000 miles of track and over 20,000 locomotives, and the 
complexity is compounded by the challenges of achieving 
seamless interoperability across passenger and freight 
railroads with differing systems.
    Among other things, PTC has required the formulation of 26 
new technical standards facilitating the development of new 
communications equipment, on-board displays, back office 
servers, the acquisition and integration of radio spectrum and 
the mapping of 400,000 field assets.
    Many challenges were not fully understood or appreciated 
when PTC was mandated in 2008 following the tragic Metrolink 
accident in California or when railroads drafted their initial 
PTC implementation plans following the final implementing rule 
in 2010. The technical complexity is why. As implementation 
progressed, the FRA in 2012 and GAO in 2013 warned that most 
railroads would not meet the December 31, 2015 statutory 
deadline to implement PTC. FRA found that railroads encountered 
extensive and unexpected technical and programmatic challenges, 
and GAO found that railroads could encounter operational risks 
from trying to meet the deadline while components were still in 
development.
    That being said, railroads have made progress on 
implementation. Over 13,000 locomotives are equipped or 
partially equipped and over 8,000 signals have been replaced. 
Railroads have also committed significant funds. Passenger 
railroads have spent over $1 billion, and freight railroads 
have spent over $5 billion. But due to the complexity and 
implementation challenges with PTC, the vast majority of 
railroads will not meet the deadline.
    As a result of this reality, the question in Congress has 
not been whether to extend the deadline, but rather how to 
extend the deadline.
    Senator Feinstein, with original cosponsors Boxer, 
Blumenthal, Schumer, and Gillibrand, introduced a bill, Senate 
Bill 1006, that would extend the deadline to 2018 on a case-by-
case basis in one-year increments.
    The Administration proposes giving the Secretary of 
Transportation discretion to extend the deadline with no hard 
end date on a case-by-case basis. The Administration also 
proposes to allow the Secretary to exempt track from the PTC 
mandate altogether if a railroad implements alternative 
strategies that meet certain criteria.
    Senator Blunt, with 13 cosponsors, 10 of which are on this 
committee, including me, introduced a bipartisan bill, Senate 
Bill 650, that was successfully reported out of this committee 
granting an extension to 2020 with case-by-case extensions for 
testing, certification, or extenuating circumstances for up to 
2 additional years. As amended by Senator Blumenthal, the bill 
would require annual progress reports submitted to the 
Secretary.
    There is merit in ensuring that railroads focus their time 
and resources on installing and testing PTC appropriately so 
that the systems work as intended, especially given the $6 
billion investment to date and the great need to put that 
investment to use. But there is also merit in providing 
additional oversight to ensure expeditious implementation.
    Understanding that there is broad agreement on the need for 
deadline extension, I hope Congress can soon come together on a 
thoughtful, revised implementation framework for this important 
safety technology. Otherwise, there could be some potentially 
significant effects when each railroad that cannot meet the 
deadline must decide whether to stop service or operate in 
violation of the law, subject to penalties and unknown 
liability risk.
    After December 31, each railroad must evaluate the legality 
of allowing passenger operations over their tracks and the 
legality of shipping toxic-by-inhalation materials that are 
nevertheless critical to so many parts of our economy, from 
ammonia for our fertilizer to chlorine for our water. 
Alternative modes of transportation may not be as efficient or 
as safe.
    In the course of our hearing today, in addition to PTC, I 
expect that we will discuss other noteworthy, ongoing safety 
initiatives. Without question, we must improve the safety of 
our Nation's passenger rail system.
    To that end, I commend Senators Wicker and Booker for their 
leadership on the passenger rail bill, which will be introduced 
later this month and has a dedicated safety title that 
addresses many of these important issues. The Committee looks 
forward to considering their bipartisan bill later this month.
    With that, I will yield to our distinguished Ranking 
Member, the Senator from Florida, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    And you are right. Tragically, the reason we are here for 
this hearing is that our rail safety efforts have not worked. 
And while this investigation is ongoing, the solution is 
apparent. We need positive train controls installed and 
activated as soon as possible.
    Now, we have heard about the technical challenges and 
reasons for delay, and undoubtedly, the installation of PTC is 
complex, but just talking about the technical challenges will 
not make them go away. We need to get this technology installed 
quickly, and then we must do some more. We must make sure that 
we prevent further delays. And we must also consider whether 
additional technologies or changes in operations could prevent 
these kinds of crashes. While we know that PTC is, we think, 
the best solution, I would like to hear from you all today if 
there are other measures that can be put into place in the 
meantime to protect passengers.
    We must also make sure that our passenger and commuter 
railroads have the funding that they need to install PTC. 
According to the American Public Transportation Association, 
commuter rail needs between $2 billion to $3 billion to 
implement and install these systems. But what are we facing? 
Instead of looking at these increases, we are facing cuts. I 
think we are going to have to reverse that course.
    And finally, we would like for no accidents to occur at 
all, which is the standard, but we know that they will. So we 
need to protect the victims when those accidents occur. The 
victims and their families ought to receive appropriate 
compensation, but an arbitrary cap on compensation enacted 
nearly 2 decades ago is unrealistic. It is time to reevaluate 
the cap and to ensure that the victims of these crashes are 
adequately compensated.
    And compared to other modes of transportation, rail 
obviously will continue to be a very safe way of moving people 
and freight. But this committee has the responsibility to learn 
from this crash and to examine whether additional safety 
measures should be put into place.
    I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    I want to turn now to our panel. We have with us today Mr. 
Robert Lauby. He is the Chief Safety Officer at the U.S. 
Department of Transportation. Mr. DJ Stadtler. Mr. Stadtler is 
the Chief Operations Officer of Amtrak. Mr. Charles Mathias. He 
is the Bureau Chief of the Wireless Telecommunications Bureau 
at the Federal Communications Commission. And the Honorable 
Bella Dinh-Zarr. Ms. Dinh-Zarr is the Vice Chairman of the 
National Transportation Safety Board.
    Welcome to all of you. Thank you for taking the time to 
share with us your thoughts. We look forward to your input and 
the opportunity to ask you some questions. I believe we will 
start on my left and your right with Ms. Dinh-Zarr. Please 
proceed with your remarks, and if you can all confine it as 
close as possible to five minutes, it will be greatly 
appreciated. Thank you.

STATEMENT OF HON. T. BELLA DINH-ZARR, PhD, MPH, VICE CHAIRMAN, 
              NATIONAL TRANSPORTATION SAFETY BOARD

    Dr. Dinh-Zarr. Thank you, Chairman. Chairman Thune, Ranking 
Member Nelson, and members of the Committee, thank you for the 
opportunity to speak to you today.
    I would like to start by telling you about an incident that 
occurred in Connecticut when two commuter trains collided head 
on after one of the trains failed to follow operating orders. 
Four people were killed and 43 people were injured as a result 
of this accident.
    This accident occurred on August 20, 1969 in Darien, 
Connecticut, and led to the NTSB's first train control 
technology recommendation in 1970. While it occurred over 45 
years ago, the same story, the story of tragedies that could 
have been prevented, is repeated again and again in too many of 
the rail accidents that we have investigated now.
    Since that first recommendation, the NTSB has investigated 
over 140 PTC-preventable accidents in which nearly 300 people 
died and over 6,500 people were injured. The complete list of 
these accidents is attached to my full written statement.
    As we all know, the May 12 accident in Philadelphia would 
have been prevented by PTC, and sadly eight people were killed 
and more than 200 people were seriously injured. I was there. I 
was at the scene of that accident. I saw firsthand the terrible 
aftermath and the damage, and I had the opportunity to speak 
with some of the families who were affected by this tragedy. So 
on behalf of the entire NTSB, I would first like to offer my 
deepest condolences to those who lost their loved ones in this 
accident, and our thoughts still remain with those who are 
recovering from their injuries. And we would like to assure 
them that we are working to prevent future such tragedies.
    Simply stated, PTC, or positive train control, is a system 
that prevents or mitigates accidents, accidents involving 
overspeeding, train-to-train collisions, incursions into 
roadway work zones, and misaligned switches. PTC is really the 
safeguard against human factors like distraction, fatigue, or 
simply human error. It does not take away from the 
responsibility of the operator, but what it does do is provide 
an additional layer of safety, an additional layer of safety 
should something, whatever it is, go wrong.
    After the deadly accident in Chatsworth, California in 
2008, Congress mandated the implementation of PTC by the end of 
this year, 7 years after the bill was signed into law. Those 
railroads that have made the difficult decisions and invested 
in this proven safety enhancement should be commended for their 
leadership. For those that will not meet the deadline, there 
should be a transparent accounting of the steps taken, and the 
steps not taken, to implement this mandate.
    We at the NTSB understand that there are challenges and 
complexities associated with implementing PTC, but there are 
rail lines that will meet the deadline. And in other 
industries, we have seen technologies implemented that were 
considered initially to be too difficult or too expensive, but 
ultimately these lifesaving technologies were implemented, they 
were accepted, and they were welcomed by the American public.
    For example, in cars, electronic stability control, or ESC, 
can detect when a car is about to lose traction and 
automatically apply the brakes. Congress mandated stability 
enhancing technologies in 2005, and just 7 years later by 2012, 
all new cars were equipped with ESC. And NHTSA reports a 60 
percent reduction in fatal rollovers and a 31 percent reduction 
in single-vehicle crashes as a result of ESC.
    There are always challenges and complexities and costs 
associated with new lifesaving technologies, but we need to 
move beyond thinking about the short-term transactional costs 
and focus on, as the Chairman eloquently put it, the long-term 
transformational benefits that technologies like PTC will 
provide to save lives and prevent injuries. We have the latest 
technology, and even if it is difficult, we should use it to 
save lives.
    As we state in our Most Wanted List, each death, each 
injury, and each accident that PTC could have prevented 
testifies to the vital importance of implementing PTC now. And 
I feel it is my responsibility to all of you, to Chairman 
Thune, to the good Senators of this committee, and to the 
American people to add that for every day that passes without 
PTC, we run the risk of another deadly and very preventable, 
PTC-preventable, accident.
    Thank you, and I would be happy to answer any questions.
    [The prepared statement of Dr. Dinh-Zarr follows:]

Prepared Statement of Hon. T. Bella Dinh-Zarr, PhD, MPH, Vice Chairman, 
                  National Transportation Safety Board
    Good morning Chairman Thune, Ranking Member Nelson, and the Members 
of the Committee. Thank you for inviting the National Transportation 
Safety Board (NTSB) to testify before you today.
    The NTSB is an independent Federal agency charged by Congress with 
investigating every civil aviation accident and significant incidents 
in the United States and significant accidents and incidents in other 
modes of transportation--railroad, highway, marine and pipeline. The 
NTSB determines the probable cause of accidents and other 
transportation events and issues safety recommendations aimed at 
preventing future accidents. In addition, the NTSB carries out special 
studies concerning transportation safety and coordinates the resources 
of the Federal Government and other organizations to provide assistance 
to victims and their family members impacted by major transportation 
disasters.
    Since its inception, the NTSB has investigated more than 140,500 
aviation accidents and thousands of surface transportation accidents. 
In addition, the NTSB has completed 553 major investigative reports in 
the areas of railroad, pipeline, and hazardous materials safety, 
including 150 accidents involving Amtrak. On call 24 hours a day, 365 
days a year, NTSB investigators travel throughout the country and 
internationally to investigate significant accidents and develop 
factual records and safety recommendations with one aim--to ensure that 
such accidents never happen again.
    To date, we have issued over 14,000 safety recommendations to 
nearly 2,300 recipients. Because we have no authority to regulate the 
transportation industry, our effectiveness depends on our reputation 
for conducting thorough, accurate, and independent investigations and 
for producing timely, well-considered recommendations to enhance 
transportation safety.
    The NTSB's annual Most Wanted List highlights safety-critical 
actions that the U.S. Department of Transportation (DOT), United States 
Coast Guard, other Federal entities, states, and organizations need to 
take to help prevent accidents and save lives. In January, the NTSB 
released its Most Wanted List of Transportation Safety Improvements for 
2015. Each year, we develop our Most Wanted List based on safety issues 
we identify as a result of our accident investigations. This year's 
Most Wanted List includes ``Implement Positive Train Control in 2015.'' 
As we pointed out:

        Without Positive Train Control (PTC), real-world results have 
        been tragic. PTC is a system of functional requirements for 
        monitoring and controlling train movements to provide increased 
        safety. While the NTSB has called for a system like this for 
        over 45 years, it still has not been fully implemented in our 
        commuter, intercity, and freight trains. Without it, everybody 
        on a train is one human error away from an accident.

        Congress enacted the Rail Safety Improvement Act of 2008 
        [RSIA]. The Act requires each Class I rail carrier and each 
        provider of regularly-scheduled intercity or commuter rail 
        passenger service to implement a PTC system by December 31, 
        2015. Progress is being made toward this lifesaving goal. 
        Metrolink became the first commuter rail system to implement 
        PTC, when it began a revenue service demonstration on the BNSF 
        Railway. This demonstration project is a step in the right 
        direction, and Metrolink reports it will implement PTC fully 
        throughout its entire system before the Congressionally 
        mandated deadline.

        It has been more than 45 years since the NTSB first recommended 
        the forerunner to PTC. In the meantime, more PTC-preventable 
        collisions and derailments occur, more lives are lost, and more 
        people sustain injuries that change their lives forever.

        Yet there is still doubt when PTC systems will be implemented 
        nationwide as required by law.

        Each death, each injury, and each accident that PTC could have 
        prevented, testifies to the vital importance of implementing 
        PTC now.

    For over 45 years, the NTSB has investigated numerous train 
collisions and over speed derailments caused by operational errors 
involving human performance failures. The NTSB attributed these human 
performance failures to a variety of factors, including fatigue, sleep 
disorders, medications, loss of situational awareness, reduced 
visibility, and distractions in the operating cab. Many of these PTC-
preventable accidents occurred after train crews failed to comply with 
train control signals, follow operating procedures in non-signaled or 
``dark'' territories, observe work zone protections, or adhere to other 
specific operating rules such as returning track switches to normal 
position after completing their work at railroad sidings.
    The first NTSB-investigated accident that train control technology 
would have prevented occurred in 1969, when four people died and 43 
were injured in the collision of two Penn Central commuter trains in 
Darien, Connecticut.\1\ The NTSB recommended, based upon its 
investigation of that accident, that the FRA study the feasibility of 
requiring railroads to install an automatic train control system, the 
precursor to today's PTC systems.\2\ The appendix to this prepared 
statement provides a chart showing that since the NTSB issued the first 
safety recommendation concerning train control technology in 1970, 
there have been more than 140 accidents across the country resulting in 
nearly 300 fatalities, more than 6500 injuries, and costing millions of 
dollars, that could have been prevented or mitigated by PTC.
---------------------------------------------------------------------------
    \1\ NTSB, Penn Central Company, Collision of Trains N-48 and N-49 
on August 20, 1969, Rpt. No. RAR-70-03 (October 14, 1970).
    \2\ R-70-020, Dec. 18, 1970.
---------------------------------------------------------------------------
    Older cab signaling and speed control systems, such as automatic 
train control (ATC), have been in use for nearly a century. In 1919, a 
system that could automatically stop a train in violation of a signal 
was tested on the Buffalo, Rochester, and Pittsburgh Railway. That same 
system was commercially applied to the Chicago and North Western 
Railway in 1923. ATC is designed to enforce restrictive and stop 
signals by applying a penalty brake application to slow or stop the 
train to prevent or mitigate the results of train-to-train collisions, 
but ATC will not prevent all train collisions and was not designed to 
prevent over speed derailments.\3\ Although ATC is still in use today, 
the nearly century-old technology is obsolete and insufficient to 
provide an acceptable level of rail safety today. PTC systems are 
designed to prevent derailments caused by over speeding and train-to-
train collisions by slowing or stopping trains that are not complying 
with the signal systems, track authorities and speed limits. They are 
also designed to protect track workers from being struck by trains by 
preventing train incursions into designated work zones and prevent 
train movement through misaligned switches.
---------------------------------------------------------------------------
    \3\ Penalty braking is a brake application that is initiated after 
the train engineer fails to comply with a signal or to acknowledge an 
alerter alarm.
---------------------------------------------------------------------------
    Congress enacted RSIA in the aftermath of the 2008 accident in 
Chatsworth, California in which a Metrolink commuter train and a Union 
Pacific freight train collided head-on, killing 25 people and injuring 
102 others.\4\ The NTSB's investigation concluded that the Metrolink 
engineer's use of a cell phone to send text messages distracted him 
from his duties and that PTC could have prevented or mitigated this 
accident. This Committee's report accompanying the Senate bill under 
consideration prior to the enactment of the RSIA also pointed to the 
NTSB's investigation of a 2005 train derailment in Graniteville, South 
Carolina, in which an employee failed to properly line a track switch, 
resulting in the death of nine individuals due to the release of 
chlorine gas.\5\ \6\
---------------------------------------------------------------------------
    \4\ NTSB, Collision of Metrolink Train 111 With Union Pacific Train 
LOF65-12 Chatsworth, California September 12, 2008, Rpt. No. NTSB/RAR-
10/01 (Jan. 21, 2010).
    \5\ S. Rpt. No. 110-270, accompanying S. 1889, the Railroad Safety 
Enhancement Act of 2007, at 6 (March 3, 2008).
    \6\ NTSB, Collision of Norfolk Southern Freight Train 192 With 
Standing Local Norfolk Southern Train P22 With Subsequent Hazardous 
Materials Release at Graniteville, South Carolina, January 6, 2005, 
Rpt. No. NTSB/RAR-05/04 (Nov. 29, 2005).
---------------------------------------------------------------------------
    RSIA requires the implementation of a PTC system by December 31, 
2015, on each line over which intercity passenger or commuter service 
is operated or over which poison-or toxic-by-inhalation hazardous 
materials are transported .\7\ Several rail carriers have stated that 
they will not meet the 2015 deadline, and we know that Congress is 
considering extending the PTC implementation deadline. We urge Congress 
not to extend the RSIA deadline and require full PTC implementation 
without delay. NTSB accidents are filled with files containing PTC 
preventable accidents, and every day that PTC is delayed, the risk of a 
PTC-preventable accident remains.
---------------------------------------------------------------------------
    \7\ Rail Safety Improvement Act of 2008, Pub. L. No. 110-432, 
Sec. 104 (2008).
---------------------------------------------------------------------------
    The most recent PTC-preventable accident occurred last month on May 
12, 2015, when Amtrak Northeast Regional Train 188 derailed. The 
accident train, operating northbound from Washington to New York, 
departed Philadelphia's 30th Street Station on time bound for New 
York's Penn Station. The train derailed while traveling through a four-
degree left curve at Frankford Junction. Maximum speed through the 
curve is 50 miles-per-hour (mph), but NTSB's preliminary data analysis 
determined that moments before the derailment, the train was traveling 
at 106 mph when the engineer applied the emergency brake system. Eight 
people were killed and more than 200 were injured.\8\
---------------------------------------------------------------------------
    \8\ NTSB, Preliminary Report: Railroad DCA15MR010 (2015).
---------------------------------------------------------------------------
    Another PTC-preventable accident occurred on December 1, 2013, when 
a Metro-North commuter train derailed in the Bronx after entering a 
curve with a 30 mph speed limit at 82 mph.\9\ Four people lost their 
lives and 61 others were injured. We determined the probable cause of 
the derailment was the engineer's noncompliance with the 30 mph speed 
restriction because he had fallen asleep due to undiagnosed severe 
obstructive sleep apnea. A contributing factor was the absence of a 
positive train control system that would have automatically applied the 
brakes to enforce the speed restriction.
---------------------------------------------------------------------------
    \9\ NTSB, Metro North Railroad Derailment, Accident Brief No. RAB-
14/12 (October 24, 2014).
---------------------------------------------------------------------------
    Other accidents that could have been prevented by PTC include:

  <bullet> In September 2010, near Two Harbors, Minnesota, human error 
        and fatigue contributed to the collision of two freight trains, 
        injuring five crewmembers.

  <bullet> In April 2011, near Red Oak, Iowa, fatigue contributed to 
        the rear-end collision of a coal train with a standing 
        maintenance-of-way equipment train, killing two crewmembers.

  <bullet> In May 2011, in Mineral Springs, North Carolina, human error 
        contributed to the rear-end collision of two freight trains, 
        killing two crewmembers and injuring two more.

  <bullet> In May 2011, in Hoboken, New Jersey, human error contributed 
        to the collision of a train with the bumping post at the end of 
        the track.

  <bullet> In January 2012, near Westville, Indiana, inattentiveness 
        contributed to the collision of three trains, injuring two 
        crewmembers.

  <bullet> In June 2012, near Goodwell, Oklahoma, human inattentiveness 
        contributed to the collision of two freight trains, killing 
        three crewmembers.

  <bullet> In July 2012, near Barton County, Missouri, human error 
        contributed to the collision of two freight trains, injuring 
        two crewmembers.

  <bullet> In May 2013, near Chaffee, Missouri, inattentiveness and 
        fatigue contributed to the collision of two freight trains, 
        injuring two crewmembers and causing the collapse of a highway 
        bridge.

  <bullet> In December 2013, near Keithville, Louisiana, human error 
        contributed to the collision of two freight trains, injuring 
        four crewmembers.

    Since 2004, in the 30 PTC-preventable freight and passenger rail 
accidents that the NTSB investigated, 69 people died, more than 1,200 
were injured, and damages totaled millions of dollars.
    Thus far, some PTC systems have been successfully deployed. For 
example, one of the deployed PTC systems is the Amtrak Advanced Civil 
Speed Enforcement System (ACSES). Amtrak has deployed ACSES along 
portions of the Northeast Corridor that are owned by Amtrak.\10\ ACSES, 
a transponder-based system approved by FRA, enforces maximum track 
speed limits, permanent and temporary speed limits, and positive stop 
at interlocking and controlled point signals displaying stop. In 
addition, Amtrak has deployed the Incremental Train Control System 
(ITCS) on more than 60 route miles along Amtrak owned Michigan Line 
between Chicago and Detroit.\11\ ITCS has been in revenue service since 
September 2000.
---------------------------------------------------------------------------
    \10\ The area of track where the May 12, 2015 derailment occurred 
near Philadelphia is not yet equipped with ACSES. Amtrak has indicated 
it expects to have ACSES operational in this area by the end of 2015, 
if possible.
    \11\ See http://www.fra.dot.gov/Page/P0287.
---------------------------------------------------------------------------
    Extending RSIA's deadline may result in a patchwork of PTC systems 
in operation across U.S. rail systems. Without a fully implemented and 
PTC system, railroads that complied with the 2015 deadline would not be 
able to fully utilize their PTC functionality if they operate on track 
used by a carrier that has not met the law.
    In February 2013, the NTSB held a forum called ``Positive Train 
Control: Is it on Track?'' in order to bring together a wide range of 
experts to examine the technological, regulatory, and operational 
status of PTC.\12\ Challenges hindering the full implementation of PTC 
were discussed, including cost, standardization of technologies, and 
availability of radio spectrum. Despite these challenges, the NTSB 
believes it is crucial that the Congressionally-mandated goal of PTC by 
the end of 2015 remain in place.
---------------------------------------------------------------------------
    \12\ Information concerning the NTSB's PTC Forum on is available at 
http://www.ntsb.gov/news/events/Pages/2013_Train-Control_FRM.aspx
---------------------------------------------------------------------------
Conclusion
    Early forerunners of PTC have been in existence since the 1920s. 
Yet, more than a decade into the 21st century, we are still hearing 
that PTC cannot be implemented this year--it is too costly and too 
difficult. This type of response would not have been tolerated 
concerning automobile seatbelt or airbag technology, and it should not 
be acceptable here. The NTSB strongly supports full PTC implementation 
without delay. Many railroads that have made the difficult decisions 
and invested millions of dollars to implement PTC in 2015 should not be 
penalized for their leadership. For each and every day that PTC 
implementation is delayed, the risk of a PTC-preventable accident 
remains.
    Thank you for the opportunity to testify before you today. I look 
forward to responding to your questions.
                               Attachment


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Ms. Dinh-Zarr.
    Mr. Stadtler?

 STATEMENT OF DJ STADTLER, VICE PRESIDENT OF OPERATIONS, AMTRAK

    Mr. Stadtler. Thank you, Mr. Chairman, and good morning and 
thanks very much for the invitation to testify on behalf of the 
men and women of Amtrak and on behalf of our CEO, Mr. Boardman.
    Amtrak has played a prominent role in the development of 
positive train control, and in partnership with industry, we 
developed two of the first three systems approved by FRA for 
operation in the United States. Our Advanced Civil Speed 
Enforcement System, or ACSES, was introduced in 2000. It is the 
only PTC system that is approved by the FRA for 150 mile per 
hour operation. The Incremental Train control System, or ITCS, 
is currently in service on the 97 miles of Amtrak-owned 
railroad on our Michigan Line between Porter and Kalamazoo. 
That was the third such system to be approved and the only 
system, other than ACSES, that is currently approved for the 
operation at speeds in excess of 90 miles per hour.
    The type of PTC system installed on any given rail line 
segment is determined by the owning railroad, which installs 
the necessary wayside equipment. Thus, while Amtrak uses ACSES 
and ITCS on our own territory, when we are operating on host 
railroads, our onboard PTC equipment must be compatible with 
the wayside PTC system used by the host. Interoperable 
Electronic Train Management System, or I-ETMS, is used by 
essentially all of our host responses. So our diesel fleet will 
be equipped with I-ETMS for operation on host rails by the 
mandatory deadline of December 2015.
    The owning railroad is legally responsible for PTC 
installation. But terminal railroads such as KCT, Kansas City 
Terminal, and the Terminal Railroad Association of St. Louis 
deserve mention, because questions about the cost of PTC will 
likely affect passenger service. As Class III railroads, KCT 
and TRA are exempt from the PTC installation requirement except 
if a line is used by passenger trains. Those hosts have 
maintained that because Amtrak's trains are the trains that 
trigger the PTC requirement, Amtrak will be responsible for the 
cost of PTC installation, which amounts in the case of KCT to 
about $30 million. Because Amtrak cannot afford this and 
neither can the State of Missouri, we have notified KCT that 
Amtrak service over KCT territory will terminate by the end of 
the year unless an alternative is found. We do not wish to 
cease service, but, if this issue is not resolved soon, it 
could end in either the rerouting or termination of the 
Southwest Chief and the River Runner.
    PTC systems typically enforce both speed restrictions and 
stops at signals. ACSES has an extra degree of redundancy for 
enforcing stops at interlocking signals, and the speed 
regulation is based on transponders installed in the track. 
Because the Michigan Line for which ITCS was developed has many 
grade crossings, ITCS includes a different feature to activate 
gates and flashers early in advance of high speed trains, 
providing a better margin of safety. Both ACSES and ITCS are 
overlay systems, which work in conjunction with the existing 
signal system and provide an additional level of protection. 
The base for both is a conventional railroad automatic block 
signal, or ABS system, which is what is installed on the vast 
majority of the freight railroad-owned lines over which Amtrak 
operates. ABS signals tell an engineer whether to proceed at 
full speed or at restricted speed or to stop, but it does not 
incorporate any enforcement mechanism or speed control. ACSES, 
on the other hand, works in conjunction with the existing 
system on the Northeast Corridor, the automatic train control 
system, or ATC, and enforces stop indications at signals. ITCS 
has to provide some of the features that ATC provides, since it 
is designed to work with systems that do not already provide 
signal enforcement, which our Northeast Corridor ATC system 
does. ITCS is designed to operate those crossings in advance of 
a train arrival, because the basic signal system on the 
Michigan Line, which is powered by circuits in the tracks, is 
built on a physical infrastructure spaced for slower trains.
    PTC installation is currently complete on the Amtrak-
controlled segments of the Northeast Corridor, although it is 
only operational in certain segments. By December 2015, ACSES 
will be in operation throughout the NEC sections that Amtrak 
operates and maintains. We are working with the State of 
Michigan, which owns the Michigan Line segment between 
Kalamazoo and Dearborn that adjoins the Amtrak-owned segment, 
to complete ITCS installation there.
    One issue that has slowed the implementation of ACSES on 
the Northeast Corridor has been the matter of radio spectrum 
acquisition. ACSES currently operates with radios in the 900 
megahertz bandwidth, but our experience and the rail industry 
consensus suggested that we need to migrate to a bandwidth in 
the 220 megahertz range. Amtrak attempted to purchase the 
necessary bandwidth in the open market, but the acquisition 
proved to be a challenging and time-consuming process, and our 
several requests to the FCC for a bandwidth allocation out of 
its inventory were not accepted. After 5 years of procurement 
efforts, we were able to complete the necessary commercial 
transactions to purchase spectrum on the open market. We have 
been testing our system on the North End for many months, and 
we sought special temporary authority from the FCC to test on 
the South End, which we received on May 29. With that 
authority, we can test all of our wayside base stations from 
D.C. to New York at their full designated power to be sure that 
they communicate appropriately with the trains along the entire 
South End from New York to Washington and then to assure that 
the data that needs to be passed between the trains and the 
wayside computers will also work without causing interference 
to any nearby household television reception. Once that testing 
demonstrates that our system settings are appropriate, we will 
go into full operation on all equipped trains on the NEC.
    Again, I thank you for the invitation, and I look forward 
to answering your questions.
    [The prepared statement of Mr. Stadtler follows:]

Prepared Statement of DJ Stadtler, Vice President of Operations, Amtrak
    Good morning, and thanks very much for the invitation to testify on 
behalf of the men and women of Amtrak and our CEO, Mr. Boardman. Amtrak 
has played a prominent role in the development of Positive Train 
Control (PTC), and in partnership with industry, we developed two of 
the first three systems approved by the FRA for operation in the U.S. 
Our Advanced Civil Speed Enforcement System (ACSES), introduced in 
2000, is the only PTC system approved by FRA for 150mph operation. The 
Incremental Train Control System (ITCS), currently in service on the 97 
mile Amtrak-owned segment of our Michigan Line between Porter and 
Kalamazoo was the third such system to be approved, and is the only 
system other than ACSES currently approved for operation at speeds in 
excess of 90 mph.
    The type of PTC system installed on any given rail line segment is 
determined by the owning railroad, which installs the necessary wayside 
equipment such as radios, transponders, or wayside interface units, as 
well as the radio and server networks, which tie in to the existing 
dispatching system. Amtrak owns relatively little of the infrastructure 
we operate over--about 97 percent of our route mileage is owned by host 
railroads. Thus, while Amtrak uses ACSES and ITCS on its own territory, 
when operating on host railroads Amtrak's onboard PTC equipment must be 
compatible with the wayside PTC system used by the host. Interoperable 
Electronic Train Management System (I-ETMS) is used by essentially all 
of Amtrak's host railroads, so Amtrak's diesel fleet will be equipped 
with I-ETMS for operation on host rails by the mandatory deadline. 
Amtrak plans to install I-ETMS on certain Amtrak-owned trackage such as 
Chicago Union Station, where our tracks connect with host railroad-
owned lines.
    The owning railroad is legally responsible for PTC installation, 
but the Kansas City Terminal (KCT) and Terminal Railroad Association of 
St Louis (TRRA) deserve mention, because questions about the cost of 
PTC will likely affect passenger service. As Class III railroads, KCT 
and TRRA are exempt from the PTC installation requirement, except if a 
line is used by passenger trains. Both KCT and TRRA are owned by Class 
I railroads. This distinction is important, because even though they 
handle significant quantities of hazardous material and PTC would be 
required if they were considered Class I; because they're considered 
Class III, the PTC requirement is triggered by the operation of 
passenger trains. These hosts have maintained that because Amtrak's 
trains trigger the PTC requirement, Amtrak is responsible for the cost 
of PTC installation, which amounts in the case of KCT to $30 million. 
Because Amtrak cannot afford this, and neither can the state of 
Missouri, we have notified KCT that Amtrak service over KCT territory 
will terminate by the end of the year unless an alternative is found. 
We do not wish to cease service, but if this issue is not resolved 
soon, it could end in either the rerouting or termination of the 
Southwest Chief and the River Runner.
    PTC systems typically enforce both speed restrictions and stops at 
signals. ACSES has an extra degree of redundancy for enforcing stops at 
interlocking signals, and the speed regulation is based on transponders 
installed in the track, a necessary feature for the level of 
reliability needed at very high speeds. Because the Michigan Line for 
which ITCS was developed has many grade crossings, ITCS includes a 
feature to activate gates and flashers early in advance of high speed 
trains, to provide a better margin of safety. Both ACSES and ITCS are 
``overlay'' systems, which work in conjunction with the existing signal 
system and provide an additional level of protection. The base for both 
is a conventional railroad automatic block signal (ABS) system, which 
is what is installed on the vast majority of the freight railroad-owned 
lines over which Amtrak operates. ABS signals tell an engineer whether 
to proceed at full speed or restricted speed, or to stop, but it does 
not incorporate any enforcement mechanism or speed control. ACSES, on 
the other hand, works in conjunction with the existing (Automatic Train 
Control) ATC system which is already in service on the NEC, and 
enforces stop indications at signals. ITCS has to provide some of the 
features that ATC provides, since it is designed to work with systems 
that don't already provide signal enforcement, which our NEC ATC system 
does. ITCS is designed to operate those crossings in advance of a train 
arrival because the basic signal system on the Michigan Line, powered 
by circuits in the tracks, is built on a physical infrastructure spaced 
for slower trains. ITCS is approved by FRA for 110mph operations.
    PTC installation is currently complete on the Amtrak-controlled 
segments of the NEC, although it is operational only in certain 
segments. By December 2015, ACSES will be in operation throughout the 
NEC sections Amtrak operates and maintains. There will, however, be a 
56 mile gap on the segment owned by the states of New York and 
Connecticut, and maintained and operated by Metro-North Railroad; there 
is also a small gap in Queens, New York at Harold Interlocking, which 
is owned and maintained by the Long Island Rail Road. We are working 
with the state of Michigan, which owns the Michigan Line segment 
between Kalamazoo and Dearborn that adjoins the Amtrak-owned segment, 
to complete ITCS installation there. That ITCS installation will 
probably be operated and maintained by Amtrak under contract, but the 
state is responsible for the cost of installation, since it owns the 
railroad.
    One issue that has slowed the implementation of ACSES on the 
Northeast Corridor has been the matter of radio spectrum acquisition. 
ACSES currently operates with radios in the 900MHz bandwidth, but our 
experience (and rail industry consensus) suggested that we needed to 
migrate to a bandwidth in the 220MHz range. Amtrak attempted to 
purchase the necessary bandwidth on the open market, but the 
acquisition proved to be a challenging and time consuming process, and 
our several requests to the FCC for a bandwidth allocation out of its 
inventory were not accepted. After five years of procurement efforts, 
we were able to complete the necessary commercial transactions to 
purchase spectrum on the open market. We have been testing our system 
on the North End for many months and we sought Special Temporary 
Authority from the FCC to test on the South End, which we received on 
May 29. With that authority, Amtrak can test all of its wayside base 
stations from DC to New York at their full designated power to be sure 
that they communicate appropriately with the trains along the entire 
south end (New York to Washington), and then to assure that the data 
that needs to be passed between the trains and the wayside computers 
will also work without causing interference to any nearby household 
television reception. Once that testing demonstrates that our system 
settings are appropriate we can go into full operation on all equipped 
trains on the NEC.

    The Chairman. Thank you, Mr. Stadtler.
    Mr. Lauby?

            STATEMENT OF ROBERT C. LAUBY, ASSOCIATE

       ADMINISTRATOR FOR SAFETY AND CHIEF SAFETY OFFICER,

                FEDERAL RAILROAD ADMINISTRATION,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Lauby. Thank you, Chairman Thune and Ranking Member 
Nelson, for inviting me to appear before you today to discuss 
passenger rail safety.
    I want to start by extending our deepest sympathies to the 
victims and their loved ones of the May 12 Amtrak accident in 
Philadelphia. Safety drives everything that we do at FRA, and I 
can assure you that we will take every step we can to prevent 
this type of tragic accident from ever happening again.
    FRA continues to investigate this accident, along with 
NTSB. While it will take time to complete the investigation, 
FRA will not hesitate to take any actions that will improve the 
safety of Amtrak or other passenger rail operations in the 
interim.
    There has been a significant amount of public discussion 
about what could have prevented this accident, which 
technology, which new regulations. The reality is that positive 
train control is specifically designed to prevent overspeed 
accidents. If we believe the cause of this incident was 
overspeed, then it would have been prevented by positive train 
control.
    As this committee is well aware, PTC is absolutely 
essential to achieve the kind of safety that we expect on our 
rail system. Despite the challenges facing full implementation 
of PTC--and there certainly are many--FRA's role is to enforce 
the December 31, 2015 deadline that Congress imposed.
    FRA has been actively pushing the railroads to have PTC 
fully implemented before the deadline. We have met with the 
railroads for years on this particular issue. We have provided 
technical assistance to assist the railroads in understanding 
the PTC requirements and the methods to implement it. We have 
hired staff to assist and oversee the implementation of the 
technology. We have urged the timely submission of PTC 
development plans and safety plans, and we have monitored 
progress with individual railroads and with the Association of 
American Railroads. We have worked directly with the FCC to 
assist on issues related to spectrum, and as you see, FRA has 
been fully engaged with the industry to make PTC implementation 
a reality. Acting Administrator Feinberg also established a PTC 
Implementation Team that is aggressively managing this 
critical, congressionally mandated safety technology.
    For more than 3 years, FRA has been sounding the alarm that 
most railroads have not made sufficient progress to meet the 
December 2015 deadline. FRA highlighted its concerns about PTC 
implementation in its August 2012 PTC report to Congress, as 
well as in the GROW AMERICA Act.
    We have also urged year after year that more funding be 
directed at commuter railroads and Amtrak to implement PTC 
systems. For the past 2 years, FRA has requested $825 million 
to assist commuter railroads with implementation of PTC, as 
well as additional funding to aid with PTC implementation on 
the Amtrak network.
    Despite a lack of Federal funding directed at commuter 
railroads, FRA is using the resources it has available now to 
assist railroads in implementing PTC. For example, FRA has just 
issued a $967 million Railroad Rehabilitation and Improvement 
Financing program loan to the New York Metropolitan Transit 
Authority. This MTA authority is one of the Nation's largest 
commuter railroad providers.
    We have also focused over $400 million of our high speed 
intercity passenger rail program on PTC installation.
    Additionally, our budget request for rail development 
programs have consistently made PTC installation an eligible 
activity.
    If on January 1, 2016, railroads required to implement PTC 
systems are in violation of the statutory deadline, FRA will 
take appropriate enforcement actions to achieve compliance as 
quickly as possible. To address those concerns, the GROW 
AMERICA Act proposes that FRA be granted authority to review, 
approve, and provisionally certify PTC plans and grant merit-
based extensions to the current statutory deadline on a 
railroad-by-railroad basis.
    Provisional certification would give FRA the authority to 
establish conditions to ensure that railroads raise the bar on 
safety while they work toward full PTC implementation.
    The public policy implications of railroads failing to meet 
the PTC deadline are very serious. If Congress provides FRA the 
authority and flexibility, as requested in the GROW AMERICA 
Act, then implementation of PTC can be managed safely, 
efficiently, and effectively.
    We appreciate this committee's attention and focus on this 
issue, and we look forward to working with the Committee to 
make the American rail network as safe as possible.
    Thank you for your attention. I will be happy to answer 
your questions.
    [The prepared statement of Mr. Lauby follows:]

    Prepared STATEMENT of Robert C. Lauby, Associate Administrator 
    for Railroad Safety and Chief Safety Officer, Federal Railroad 
           Administration, U.S. Department of Transportation
    Thank you, Chairman Thune and Ranking Member Nelson for inviting me 
to appear before you today to discuss passenger rail safety. I want to 
start by extending our deepest sympathies to the victims and their 
loved ones of the May 12th Amtrak accident in Philadelphia. Safety 
drives everything we do at the Federal Railroad Administration (FRA) 
and when an accident claims innocent lives and injures from so many it 
is truly painful for the FRA family. I assure you that FRA will take 
every step it can to prevent accidents like this from happening again.
    FRA continues to investigate the circumstances surrounding the 
accident. While it will take time to complete the investigation, FRA 
has not and will not wait to take actions that will improve the safety 
of Amtrak and other passenger rail operations. For example, on May 16, 
4 days after the accident, Acting Administrator Sarah Feinberg directed 
Amtrak to take several actions before allowing its operations to resume 
north of Philadelphia. We followed those directives with an Emergency 
Order (Emergency Order 31) on May 21. Amtrak has complied with those 
directives thus far, and FRA will ensure that Amtrak follows through to 
fully implement them.
    When we released the May 21 Emergency Order, we also stated that we 
were considering taking additional steps at other passenger railroads 
that may have similar curve and speed issues. We continue our work on 
those directives and plan to release additional information about that 
work.
    And while the cause of this accident has not been officially 
determined, we know that overspeed was a significant factor and that 
human error may be involved. Human error, or human factor, accidents as 
described in our accident database remain the leading cause of all rail 
accidents.
    They are also the most difficult to address. Despite those 
difficulties, FRA is preparing a package of actions that we will 
finalize in the coming weeks and months aimed at addressing human 
factor safety issues--safety issues such as speeding, distraction, 
fatigue and training. These actions may include additional emergency 
orders, safety advisories, rulemakings, voluntary agreements, or other 
initiatives.
    Beyond those next steps, I want to assure you that FRA is firmly 
committed to taking additional actions--as many as it takes--to 
mitigate the risks and hazards identified in the ongoing investigation.
    There has been a significant amount of public discussion about what 
could have prevented this accident. Which specific technology? Which 
new regulation? The reality is that Positive Train Control (PTC) is 
specifically designed to prevent overspeed accidents. If the cause of 
this incident was overspeed, it would have been prevented by PTC. As 
this Committee is well aware, PTC is the single most important railroad 
safety technological development in more than a century, and it is 
absolutely necessary to ensuring the kind of safety that we expect on 
our rail system. Safety is FRA's highest priority and despite the 
challenges facing full implementation of PTC, FRA's role is to enforce 
the December 31, 2015, deadline that Congress imposed, and to ensure 
that railroads implement PTC as safely and efficiently as possible.
    When railroads submitted their Initial PTC Implementation Plan 
(PTCIP) in 2010, they stated they would meet the 2015 deadline per the 
requirements of the Railroad Safety Improvement Act (RSIA). All the 
submitted plans assumed that there would be few, if any technical and 
programmatic issues related to the design, development, integration, 
deployment, and testing that would require resolution.
    In 2013, U.S. Class I \1\ railroads operated approximately 162,000 
miles of track, 60,000 miles of which potentially require the 
installation of PTC \2\ under the current laws and regulations. 
Intercity passenger and commuter railroad operations account for an 
additional estimated 8,400 \3\ miles of track that is required to be 
equipped with PTC.
---------------------------------------------------------------------------
    \1\ BNSF Railway, CSX Transportation, Grand Trunk Corporation 
(Canadian National Railway U.S. subsidiary), Kansas City Southern 
Railway, Norfolk Southern Railway Combined Railroad Subsidiaries, Soo 
Line Corporation (Canadian Pacific Railway U.S. subsidiary), and Union 
Pacific Railroad.
    \2\ ``Class I Railroad and U.S. Freight Railroad Statistics'' 
Association of American Railroads, 2014. This equates to roughly 95,700 
miles of the U.S. rail network of roughly 140,000 miles.
    \3\ 2012 Transit Way Mileage-Rail Modes, American Public 
Transportation Association, http://www.apta.com/resources/statistics/
Pages/NTDDataTables.aspx, accessed 15 Dec 2014.
---------------------------------------------------------------------------
    FRA has been actively pushing the railroads to have PTC fully 
implemented by the deadline. We have met with the railroads for years 
on this issue, we have hired staff to assist and oversee the 
implementation of the technology, we have urged the timely submission 
of PTC development and safety plans, we have discussed progress with 
individual railroads and with the Association of American Railroads 
(AAR), and we have worked directly with the FCC to resolve issues 
related to spectrum. Acting Administrator Feinberg also established a 
PTC Implementation Team that is aggressively managing this critical, 
Congressionally-mandated safety technology that will reduce the risk of 
human factor caused accidents and save lives.
    For more than three years, FRA has been sounding the alarm that 
most railroads have not made sufficient progress to meet the December 
2015 deadline. We have noted that the certification and installation of 
PTC systems are significant undertakings. FRA highlighted its concerns 
about PTC implementation in its August 2012 PTC report to Congress, as 
well as in the GROW AMERICA Act.\4\ Among those are the following 
challenges:
---------------------------------------------------------------------------
    \4\ The Secretary of Transportation submitted the GROW AMERICA Act 
to Congress on March 30, 2015. ``GROW AMERICA'' stands for ``Generating 
Renewal, Opportunity, and Work with Accelerated Mobility, Efficiency, 
and Rebuilding of Infrastructure and Communities throughout America.

---------------------------------------------------------------------------
  <bullet> Design Specification Availability

  <bullet> Back office Servers and Dispatch System Availability

  <bullet> Track Database Verification

  <bullet> Installation Engineering

  <bullet> Communications Spectrum Availability

  <bullet> Radio Availability

  <bullet> Reliability and Availability

  <bullet> Funding

    FRA has long stated that a lack of public sector funding may cause 
unwanted delays in fully implementing PTC. FRA has requested funding 
for PTC development and implementation grants in every budget request 
dating back to Fiscal Year (FY) 2011. For the past two years, as part 
of the GROW AMERICA Act, FRA has requested $825 million to assist 
commuter railroads with the implementation of PTC, as well as 
additional funding to aid with the implementation of PTC on Amtrak's 
national network.
    Despite a lack of Federal funding directed to commuter railroads, 
FRA is using the resources it has available now to assist railroads in 
implementing PTC. For example, FRA issued a $967.1 million loan through 
the Railroad Rehabilitation and Improvement Financing (RRIF) program to 
the New York Metropolitan Transportation Authority, the Nation's 
largest commuter railroad provider, to facilitate the deployment of the 
technology.
    In addition to the same practical and logistical project management 
challenges affecting the freight railroads, intercity and commuter 
passenger railroads face other challenges due to their public sector 
nature and heavy reliance upon operating subsidies. These railroads 
must advance PTC system implementation within a fiscal environment 
already constrained by the limited availability of capital funds. FRA 
expects that when PTC technology is fully mature, it will have a 
positive, transformative impact on railroad safety and operating 
efficiency in the decades to come.
    If, on January 1, 2016, railroads required to implement PTC systems 
are in violation of this statutory deadline, FRA will take appropriate 
enforcement actions consistent with its statutory authority and 
regulatory oversight responsibilities to achieve compliance. 
Stakeholders and the Congress have asked FRA for guidance on how to 
approach concerns about railroads not meeting the mandated deadline. To 
address those concerns, the GROW AMERICA Act the Department submitted 
to Congress in April 2014 and March 2015 proposed that FRA be granted 
authority to review, approve, and provisionally certify PTC plans on a 
railroad-by-railroad basis. FRA asked for this authority so that it 
could continue to assist the railroads to get PTC implemented as 
quickly as possible for it is only through implementation of PTC that 
accidents like the derailment of Amtrak train 188 can truly be 
prevented.
    Provisional certification would also give FRA the authority to 
establish conditions to ensure railroads raise the bar on safety and 
establish appropriate back stops even as they continue to work towards 
full PTC implementation. GROW AMERICA would also provide FRA the 
authority to establish implementation milestones, use alternative 
methods of protection in lieu of PTC systems to achieve safety 
improvements and require coordination between the U.S. Department of 
Transportation and the Federal Communications Commission (FCC) to 
assess required spectrum needs and availability to implement PTC 
systems. GROW AMERICA also proposes to provide more than $3 billion 
over 6 years to help pay for PTC implementation on publicly-funded 
commuter railroads and Amtrak routes.
    To summarize, FRA has actively supported deployment of PTC through 
the issuance of performance-based regulations and technical assistance 
documents to aid railroads, manufacturers, and suppliers to achieve 
full PTC functionality and interoperability. Over the course of several 
decades, FRA and the railroad industry have sponsored and conducted 
numerous research and technology demonstration projects to evaluate or 
improve upon signal and train control technologies that have evolved 
into what is now known as PTC. Since 2000 FRA has published over 50 
technical reports, several Research Results, and numerous other reports 
to support its rulemaking activities. FRA has also built a PTC system 
test bed at its Transportation Technology Center in Pueblo, CO. This 
facility is available to the railroad industry as they work to 
successfully integrate and test all of component technologies necessary 
to achieve implementation.
    The difficulties being encountered, while not insurmountable, are 
highly complex and require a significant investment of time, people, 
and resources to successfully resolve. The public policy implications 
of railroads failing to meet the PTC deadline are serious. FRA has been 
dedicating resources and working diligently to support the industry for 
years to achieve full PTC implementation where required by the 
statutory deadline. If Congress provides FRA the authority and 
flexibility as requested in the GROW AMERICA Act, then PTC 
implementation can be managed safely, efficiently, and effectively.
    In conclusion, safety will always be FRA's first priority. We 
appreciate this Committee's attention and focus on issues related to 
railroad safety. Again, I want to express our deepest sorrow for the 
victims and their families. We look forward to working with this 
Committee to improve our programs and make the American rail network as 
safe, reliable, and efficient as possible. I am happy to respond to 
your questions.

    The Chairman. Thank you, Mr. Lauby.
    Mr. Mathias?

         STATEMENT OF CHARLES MATHIAS, ASSOCIATE CHIEF,

              WIRELESS TELECOMMUNICATIONS BUREAU,

               FEDERAL COMMUNICATIONS COMMISSION

    Mr. Mathias. Chairman Thune, Ranking Member Nelson, and 
distinguished members of the Committee, thank you for inviting 
me today to testify.
    Like the rest of the Nation, we at the FCC are deeply 
saddened by the tragic Amtrak derailment in Philadelphia.
    Promoting the safety of life and property through the use 
of wire and radio communication is a top FCC priority. As the 
Nation's communication agency, the FCC helps coordinate 
spectrum acquisition by freight and commuter railroads. We also 
manage the statutorily required historic preservation and 
environmental reviews of poles, antennas, and associated 
infrastructure to be used to support positive train control, or 
PTC, systems.
    In the absence of specific statutory direction for the FCC 
to clear and reallocate spectrum for PTC purposes, the FCC has 
been working closely with the railroads since 2008 to identify 
spectrum available on the secondary market. The FCC has acted 
swiftly upon request to approve multiple spectrum transactions, 
including the freight railroads' acquisition of spectrum 
nationwide, Amtrak's acquisition of spectrum in the Northeast 
Corridor, as well as requested waivers to better enable and 
test PTC deployment.
    To be clear, the Commission plays no role in designing or 
assessing the railroads' choice of PTC technology. Overseen by 
the Federal Railroad Administration, the railroads are 
responsible for PTC design and deployment, and the FRA has sole 
oversight authority to approve those systems and ensure they 
are rigorously tested and working properly.
    The country's major freight railroads have led the way in 
securing spectrum for PTC. Through private transactions, they 
acquired nationwide spectrum in the commercial 220 to 222 
megahertz spectrum band just months before the act became law. 
These railroads quickly focused on utilizing the spectrum when 
the PTC mandate was established. When they did, the freight 
railroads effectively drove other railroads, including Amtrak 
and the commuter rails, to spectrum in and around the 220 band 
for their PTC operations as well.
    For most of the country, this strategy appears to have been 
successful. The FCC has proactively facilitated and continues 
to facilitate freight and passenger railroads' successful 
acquisition and lease of spectrum on secondary markets. We have 
also granted the railroads extensive technical waivers, for 
example, for more transmitter power to use spectrum for PTC 
purposes.
    Spectrum acquisition in the Northeast Corridor differs from 
the rest of the country because Amtrak and the freights are 
deploying two different PTC systems that were not from the 
outset engineered to be compatible in the same spectrum band. 
So unlike in a market such as Chicago where the railroads 
intend to share the same block of spectrum and use a single PTC 
system, in the Northeast Corridor the choice to deploy two 
systems requires spectrum far enough from the others to avoid 
interference.
    On May 29, 2015, Amtrak and the freight railroads advised 
FCC staff that using their separate PTC radio systems on the 
Boston to New Haven portion of the Northeast Corridor in the 
same spectrum block could result in harmful interference that 
could cause both systems to function improperly or stop working 
altogether. FCC staff will continue to work with Amtrak, the 
commuter rails that use the Amtrak system in the Northeast 
Corridor, and the freights to help identify solutions to these 
problems.
    PTC infrastructure deployments are also an FCC priority. 
Federal environmental and historic preservation law requires 
the FCC to assess the potential impacts of agency undertakings, 
including the potential impact on property significant to 
tribal nations. To facilitate this process, in May 2014 the 
Advisory Council on Historic Preservation issued fast-track 
rules for future PTC pole deployments.
    Under the fast-track approach, the majority of proposed 
poles are exempt from historic preservation review. The 
Commission has the capacity to receive 1,400 exempt and non-
exempt pole applications every 2 weeks. By the beginning of 
June, the freight railroads could have submitted as many as 
40,000 poles for our review. In fact, the railroads have only 
submitted around 8,100 poles, or about 21 percent of our total 
capacity.
    Going forward, issues in the Northeast Corridor are complex 
and pose significant challenges. We stand ready to work with 
Amtrak, the commuter rails, and the freight rails to facilitate 
resolution of their evolving deployment of the two systems.
    We appreciate the Committee's interest in this issue and 
its efforts to ensure the successful deployment of PTC systems. 
The FCC is committed to working collaboratively with all 
parties to get PTC deployed.
    I look forward to answering any questions you may have, and 
thank you.
    [The prepared statement of Mr. Mathias follows:]

   Prepared Statement of Charles Mathias, Associate Chief, Wireless 
      Telecommunications Bureau, Federal Communications Commission
    Chairman Thune, Ranking Member Nelson, and distinguished members of 
the Committee, thank you for inviting me to testify before the 
Committee today. Like the rest of the nation, we at the FCC are deeply 
saddened by the tragic Amtrak derailment in Philadelphia. We send our 
condolences to the families of those who lost their loved ones and our 
gratitude to the first responders for their efforts. I want to assure 
you that the FCC is doing--and will continue to do--its part to 
facilitate the implementation of Positive Train Control, or PTC.
    Promoting the safety of life and property through the use of wire 
and radio communication is a top FCC priority. Since passage of the 
Rail Safety Improvement Act of 2008 (Act), we have worked directly with 
freight, passenger, and commuter rails to help them obtain spectrum 
licenses and complete statutorily-required historic preservation and 
environmental reviews prior to deploying infrastructure to implement 
PTC. We have also worked closely with existing spectrum licensees, our 
Federal partners, including the National Transportation Safety Board 
(NTSB) and the Department of Transportation's Federal Railroad 
Administration (FRA), as well as Tribal Nations and state officials to 
facilitate the implementation of Positive Train Control.
The FCC'S Role in PTC
    As the Nation's expert agency on communications, the FCC helps 
facilitate spectrum acquisition by freight and passenger railroads. We 
also manage the statutorily required historic preservation and 
environmental reviews of the poles, antennas, and associated 
infrastructure used to support PTC systems.
    PTC requires spectrum for communications between the stationary PTC 
radios along the railway and moving trains on the tracks. The railroads 
have targeted previously-allocated commercial spectrum to deploy PTC. 
In the absence of specific statutory direction for the FCC to clear and 
reallocate this spectrum away from its current use for PTC purposes, 
which would be a time-consuming and potentially litigious process under 
any circumstances, the Commission has encouraged railroads to acquire 
the targeted commercial spectrum from existing licensees who previously 
purchased spectrum licenses in FCC auctions. Since Congress passed the 
Act in 2008, the FCC has been working closely with the railroads, 
including Amtrak, to identify available spectrum on the secondary 
market and to approve secondary market transactions quickly.
    The Commission plays no role in designing or assessing the 
railroads' choice of PTC technology. The railroads, overseen by the 
FRA, are responsible for designing and deploying PTC systems. The FRA 
has sole authority to approve those systems and ensure they are 
rigorously tested and working properly.
PTC is a Priority for Chairman Wheeler
    Since his arrival at the FCC in November 2013, Chairman Wheeler has 
made facilitating PTC deployment a top priority. Under his direction, 
the Commission staff developed a more streamlined process for required 
historic preservation and environmental reviews. It also crafted a one-
of-a-kind settlement to allow the freight railroads to use the PTC 
facilities they had already constructed without required approvals. 
Chairman Wheeler has also encouraged Commission staff to develop 
creative approaches to meet the railroads' spectrum needs, such as 
facilitating an efficient secondary market by matching existing 
licensees with railroads needing spectrum, encouraging the freight and 
commuter rails to develop interoperable systems, examining spectrum 
sharing and lease arrangements, and waiving power level limits to 
enable PTC systems to operate more effectively.
Overall PTC Challenges
    All of us share the goal of successful PTC implementation from 
coast to coast. Significant progress has been made, and the FCC stands 
ready to act swiftly and effectively within our statutory authority. 
But it is important to acknowledge key, structural challenges. I would 
like to touch on them briefly.
    As you know, the Act does not designate specific spectrum bands for 
PTC, nor does it direct the FCC to allocate specific spectrum for PTC. 
Absent such direction from Congress--and consistent with decades of 
successful, market-driven spectrum policy--the FCC encouraged the 
railroads to turn to secondary markets for spectrum, especially given 
that much of the spectrum the rails chose for PTC had previously been 
auctioned and licensed to other private parties in major rail markets.
    In addition, the Act does not provide a funding mechanism for PTC 
spectrum acquisition, which can make acquiring spectrum in the private 
market expensive and challenging, especially for smaller railroads, 
like commuter lines, and also for Amtrak.
Freights Establish Primary PTC Spectrum Band
    While challenges exist, it is instructive to take a brief look at 
the country's major freight railroads, which have targeted and secured 
channels in the commercial 220-222 MHz spectrum band for PTC. Because 
of their complex communication needs, the freight railroads have been 
active participants in the Nation's secondary spectrum markets for many 
years.
    The country's major freight railroads acquired nationwide spectrum 
in the commercial 220-222 MHz spectrum band just months before the Act 
became law through transactions with private parties that had 
previously acquired spectrum licenses in FCC auctions or through 
secondary market transactions. The freight railroads quickly focused on 
utilizing this spectrum when the PTC mandate was established. Several 
of the major freights collectively acquired an ownership interest in a 
company that is developing PTC technology and equipment, and also 
created a spectrum coordinator--known as ``PTC-220''--to manage the 
spectrum. In doing so, the freight railroads effectively drove other 
railroads, including Amtrak and commuters, to spectrum in and around 
the 220 MHz band for their PTC operations as well.
    For most of the country, this strategy appears to have been 
successful. Whether through secondary market purchases or leases with 
PTC-220, the freights, Amtrak and the commuter rails have cooperated to 
find spectrum to meet their needs. They have reached agreements that 
address several challenges related to PTC, including sharing both 
spectrum and infrastructure as well as achieving interoperability. A 
good example of this collaboration is the planned PTC deployment in 
Chicago. There, 11 railroads, including the freights, Amtrak, and 
commuter rails, will use common PTC-220 spectrum and infrastructure to 
ensure the safe transport of passengers and cargo across the Nation's 
busiest rail market.
    Our work in facilitating spectrum access across the country is 
ongoing. For example, we are actively reviewing recently proposed 
spectrum transactions in several markets, and we continue to assist 
railroads in their efforts to identify partners for secondary market 
transactions.
Northeast Corridor
    The Northeast Corridor is a difficult and congested spectrum 
market. The freights largely met their anticipated needs in this area 
through their initial 220-222 MHz Band license purchases. Amtrak 
approached the FCC on several occasions beginning in 2011 about 
obtaining spectrum to deploy PTC in the Northeast Corridor. The FCC has 
had similar interaction with commuter rails in the area.
    In the absence of sufficient inventory or specific statutory 
direction, FCC staff encouraged the railroads operating in the 
Northeast Corridor to investigate obtaining spectrum from existing 
licensees in the secondary market.
    In fact, Amtrak and several commuter rails have been successful in 
obtaining spectrum through the secondary market. Once Amtrak and the 
existing private party licensees finalized their commercial agreements, 
FCC staff quickly approved the spectrum transactions and related 
requests for waiver of certain FCC rules. In the case of Amtrak, the 
FCC approved its use of spectrum from Boston to New Haven overnight, 
and its use of spectrum from Washington, D.C., to New York City in two 
days.
Interference Concerns
    Spectrum acquisition in the Northeast Corridor is more complicated 
than in the rest of the country because Amtrak and the freight 
railroads are deploying two different PTC systems that were not 
engineered to be compatible. The systems can operate without difficulty 
when geographically separate from each other, but when operating in 
close proximity on the same spectrum, as in the Northeast Corridor, the 
systems can encounter significant challenges. So, unlike in a market 
such as Chicago, where the railroads will share the same block of 
spectrum and use a single PTC system, in the Northeast Corridor each 
PTC system requires spectrum far enough from the other's to avoid the 
interference that could affect proper operations.
    Amtrak and the freight railroads assured the FCC that they would 
design their respective systems to operate with respect to each other 
on a non-interference basis. However, on May 29, 2015, Amtrak and the 
freight railroads advised FCC staff in a joint meeting that using their 
separate PTC radio systems on the Boston to New Haven portion of the 
Northeast Corridor in the same spectrum block would result in harmful 
interference. This could degrade or disable communications on both 
systems, causing either or both to function improperly or stop 
functioning altogether.
    FCC staff will continue to work with Amtrak, the commuter rails 
that use the Amtrak system in the Northeast Corridor, and the freights 
to help identify and review possible solutions to these recently 
identified problems arising out of the railroads' system design 
choices.
Infrastructure
    PTC infrastructure concerns played no role in the accident in 
Philadelphia. Amtrak's physical infrastructure in the Northeast 
Corridor is already in place.
    PTC-related infrastructure review has been a priority in other 
areas of the country, however. Long-standing Federal environmental and 
historic preservation laws--the National Environmental Policy Act 
(NEPA) and the National Historic Preservation Act (NHPA), 
respectively--require the FCC (and every Federal agency) to assess the 
potential impacts of agency ``undertakings,'' including possible impact 
on properties significant to Tribal Nations. This means the FCC must 
ensure that PTC deployments are reviewed by Tribal Nations and State 
Historic Preservation Offices in a manner that allows for appropriate 
consideration of potential impacts.
    In 2013, FCC staff became aware that the freight railroads had 
installed approximately 10,000 PTC poles around the country without 
complying with the FCC's review requirements under NEPA and NHPA. 
Recognizing the need for railroads to comply with the PTC mandate, the 
agency worked as required by statute with all stakeholders--freight 
railroads, Tribal Nations, state officials, the Advisory Council on 
Historic Preservation (ACHP), and other Federal agencies--to resolve 
the deployed pole issue and develop a ``fast track'' review process for 
future pole deployments.
    This process was made more complex by the fact that Tribal Nations 
in key deployment areas resisted discussions about future PTC 
deployments until the deployed pole issues were resolved. In May 2014, 
the FCC signed agreements with all seven major freight railroads that 
created a $10 million Cultural Resource Fund to account for previous 
non-compliant deployments. The fund is providing direct support to 
Tribal Nations and State Historic Preservation Offices to support 
cultural and historic preservation projects.
    Also in May 2014, the ACHP issued a set of ``fast track'' rules for 
future PTC pole deployments. Under this approach, the majority of 
proposed PTC poles are presumptively exempt from historic preservation 
review, subject only to basic checks on their eligibility for the 
exemption. The Commission has the capacity to receive 1,400 pole 
applications (including exempt and non-exempt poles) every two weeks. 
As of June 3, 2015, the freight railroads could have submitted as many 
as 38,500 poles for Tribal and state review. The railroads have 
actually submitted a total of only 8,143 poles, or about 21 percent of 
the system's capacity.
Going Forward
    The PTC spectrum situation in the Northeast Corridor is complex and 
poses significant technical challenges for the railroads. We stand 
ready to work with Amtrak, the commuter rails, and the freight 
railroads to facilitate resolution of the technical and spectrum issues 
arising from the decision to deploy separate PTC systems in the same 
frequency band in the Northeast Corridor.
Conclusion
    We appreciate the Committee's interest in this issue and its 
efforts to ensure the successful deployment of PTC systems. The FCC is 
committed to working collaboratively with all parties to facilitate the 
deployment of PTC.
    I look forward to answering any questions you may have.
                               Attachment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Mr. Mathias. I appreciate all your 
remarks and testimony.
    I want to direct a couple of questions to Mr. Lauby, and as 
I mentioned in my opening remarks, in recent years the FRA and 
the GAO have issued reports stating that most railroads are not 
going to meet the December 31, 2015 statutory deadline for PTC. 
The FRA safety team reviewed 41 PTC implementation plans, and 
it ultimately has responsibility for approving any final PTC 
safety plans necessary for railroads to receive the full 
certification and to be able to operate in revenue service.
    So I want to kind of get, just as a metric of where we are 
on some of the various railroads around the country, passenger, 
freight, et cetera, and ask just a few questions.
    One is of the roughly 28 commuter railroads that are 
required to have PTC, how many do you expect will have a fully 
functional, interoperable, and certified PTC system by the 
December 31, 2015 deadline?
    Mr. Lauby. Thank you for your question, Senator.
    We have been working closely with APTA to get information 
on the different commuter railroads to see where they are. APTA 
reports that 71 percent of the commuter railroads will not make 
the December 31, 2015 date, which means that 29 percent will. 
They have also indicated that 71 percent of the commuter 
railroads--about half of those will be able to make a 2018 
implementation date.
    Another way to look at the situation on commuter railroads 
is to look at the money expended. APTA is reporting that the 
total cost of PTC will be about $3.48 billion, and as of today, 
the commuter railroads have spent about $950 million. So you 
can see that at least on spending, they are not even a third of 
the way through.
    Beyond that, there are additional costs related to PTC that 
APTA has reported to us. The estimate is about $83 million a 
year is required to maintain that system.
    The Chairman. OK. Let us shift over to Class I freight 
railroads, which do host commuter, Amtrak, and short-line 
operations. How many of those do you expect to have a fully 
functional, operational, and certified PTC system by the 
statutory deadline?
    Mr. Lauby. According to the Association of American 
Railroads and our work with the individual railroads, we do not 
expect any of the Class I's to be in a position to have fully 
functional PTC across the board by December 31, 2015. The 
information we have to date is that installing wayside 
interface units, which is the part of positive train control 
that needs to be installed in the switches and the signals 
along the right-of-way, will not be completed until 2018, and 
that full operation of PTC is not expected until December 31, 
2020.
    The Class I railroads have estimated that the total cost 
will be about $9 billion, and their spending to date has been 
$5 billion. So they are a little bit over halfway from what we 
can tell.
    The Chairman. All right.
    Now, shortline railroads, as I understand it, do not have 
to have PTC installed until December 31, 2020, which is when 
you mentioned the freight railroads would have it fully. So how 
would you plan to certify PTC interoperability when different 
railroads, using the same track, are deploying PTC at different 
rates and have different regulatory deadlines?
    Mr. Lauby. It is difficult. Amtrak faces that challenge 
right now. They can equip their locomotives, but they cannot 
operate in PTC mode on their long distance lines until the host 
railroads actually equip the lines with positive train control. 
So that has got to be in place first before the system will 
work.
    The Chairman. The FRA's 2012 report on implementation I 
thought was highly useful in evaluating the statutory deadline. 
A little less than 2 months ago, Sarah Feinberg stated that FRA 
is working to complete and transmit an updated PTC 
implementation report to Congress before June 2015. We have not 
received that yet. I am wondering if the Committee can expect 
to receive the updated report sometime this month.
    Mr. Lauby. We are working on that report. Right now it is 
in internal clearance. We expect to have it done shortly.
    Just to give you some highlights of the report, the issues 
that we identified in 2012 are still there, but at this point, 
we feel that the items that we identified in GROW AMERICA are 
the types of authorities that we need moving forward and that 
with those authorities, we will be able to manage 
implementation of PTC in a manner that is both efficient and 
gets us to a compliant system as soon as possible.
    The Chairman. My time has expired. I turn to the Ranking 
Member, Senator Nelson.
    Senator Nelson. Mr. Lauby, the American people are not 
going to put up with waiting for 5 years. So what is the magic 
number of years?
    Mr. Lauby. Senator, I think Congress has to determine what 
the magic number of years is, and as they have done with the 
Rail Safety Improvement Act of 2008, December 31, 2015 was 
indicated as the date. The only authority that FRA has moving 
forward is to enforce that particular date to require that 
railroads meet that date, and if they are not, to take 
enforcement action. And that is pretty much what we are facing 
right now. Our authority is only to enforce the Rail Safety 
Improvement Act and the related regulations. We have no 
authority to change the date.
    Senator Nelson. OK. Let me ask you this. Mr. Lauby and Ms. 
Dinh-Zarr, if there is going to be an extension, what do we do 
to make sure that the railroads are aggressively moving to 
implement the PTC? Ms. Dinh-Zarr?
    Dr. Dinh-Zarr. Thank you, Ranking Member Nelson.
    As you know, the NTSB would like to see PTC implemented as 
soon as possible because every day that passes, we are fearful 
of another deadly crash happening.
    Senator Nelson. OK. But that is the question.
    Dr. Dinh-Zarr. Yes, sir. So as you stated, I think it is 
very important to be very transparent in knowing what steps 
were taken by each railroad and what steps were not taken by 
each railroad, should the mandate, which has come forth from 
Congress, which if the deadline is not met by the railroad.
    Senator Nelson. Mr. Lauby, do you have some suggestions?
    Mr. Lauby. If we want to prevent these tragic accidents 
like what we experienced in Philadelphia on Amtrak 188, we need 
to get PTC in place as quickly as possible on as much track as 
possible. As we begin to roll out PTC and implement it on 
different lines, we will be able to prevent those types of 
accidents. To do that, we need to be fully engaged with the 
railroads. We need to have the ability to extend the deadline. 
We need to have the ability to negotiate the deadline. We need 
to have the ability to put interim safety measures in place. We 
need to have the railroads' full attention going forward in 
order to get this done as quickly as possible. And to FRA, that 
is absolutely key.
    Senator Nelson. And you do not have that ability now?
    Mr. Lauby. We do not have that authority. The only 
authority we have is to enforce the December 31, 2015 deadline.
    Senator Nelson. Then that is something that is the 
responsibility of us.
    And you mentioned your ability to track the progress of the 
implementation. Any suggestions there?
    Mr. Lauby. We need to receive realistic implementation 
plans from the railroad industry. We received 41 implementation 
plans back in 2010, which were approved, but because of the 
mandate for December 31, 2015, every one of those show 
successful implementation of PTC at that date.
    Senator Nelson. Do either one of you have any suggestions? 
We have heard things like two-man crews or inward-facing 
cameras as a way to prevent the accidents. Do you believe these 
measures would have prevented this Amtrak crash?
    Mr. Lauby. I would like to talk a little bit about two-
person crews. We think at FRA that multiple-person crews 
enhance the safety. What we have in a train crew is we have an 
expert crew that depends on teamwork and depends on crew 
resource management in order to properly operate that train. So 
we think multiple-person crews are important but also realize 
that they are already in place on the passenger railroads in 
this country. The emphasis that was shown in our safety 
advisory needs to be communication between a conductor and a 
locomotive engineer to----
    Senator Nelson. Ms. Dinh-Zarr, what about inward-facing 
cameras?
    Dr. Dinh-Zarr. Yes, Senator Nelson. Inward-facing cameras 
are very important in determining the reason for a crash 
afterwards, and two-person crews--there are many crashes that 
we have investigated and we try to base all of our 
recommendations on evidence and data. And there are many 
crashes that involved two-person crews that have not been 
prevented that would have been prevented by PTC.
    Senator Nelson. Thanks.
    The Chairman. Thank you, Senator Nelson.
    Senator Blunt?

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman.
    Ms. Dinh-Zarr, in terms of cause of the Philadelphia 
accident, do we know any more about that yet, and was there a 
determination made by your organization in the last day that 
cell phone usage appears not to have happened?
    Dr. Dinh-Zarr. Yes, thank you, Senator, for that question.
    Yes, sir. We have determined that there was no talking or 
texting or data usage involved. However, as you are aware, 
there are 400,000 pieces of data involved in the analysis. And, 
because of the extent of that, things like use of an app or 
other use of the phone has not been determined. But we have 
determined that much. And we are working with the records to 
find----
    Senator Blunt. And I think that determination had not been 
made when there was a House hearing. So that is new information 
about----
    Dr. Dinh-Zarr. That is, yes.
    Senator Blunt.--using a cell phone as a phone. We believe 
that did not happen.
    Dr. Dinh-Zarr. Yes, sir. As of today.
    Senator Blunt. Mr. Stadtler, you mentioned that people who 
own the railroad are responsible for implementing these new 
safety measures, positive train control, or whatever the 
alternative is. How much railroad does the Government own or 
does Amtrak own?
    Mr. Stadtler. Amtrak owns the portion of the Northeast 
Corridor--pretty much all of the Northeast Corridor from Boston 
down to Washington, D.C., with the exception of about 56 miles 
from New Rochelle to New Haven. We also own a stretch of the 
railroad in Michigan.
    Senator Blunt. And how much of the passenger traffic in the 
country occurs on the Northeast Corridor?
    Mr. Stadtler. From a mileage point of view, a very small 
portion of it.
    Senator Blunt. How much of it in terms of passengers?
    Mr. Stadtler. I do not have that answer.
    Senator Blunt. You do not know how many of the passengers 
use the Northeast Corridor as opposed to every other part of 
Amtrak?
    Mr. Stadtler. I do not have that off the top of my head, 
no, sir.
    Senator Blunt. I cannot believe that. But I would like to 
know that. So will you find out and get that back to us?
    Mr. Stadtler. Certainly.
    Senator Blunt. Do you have a guess?
    Mr. Stadtler. I would say at least a third is on the 
Northeast Corridor, in fact, probably even more than a third. 
In fact, I would say if you talk about touching the Northeast 
Corridor, it is----
    Senator Blunt. I am talking about--yes, the commuters that 
touch the Northeast Corridor. That would be right.
    Mr. Stadtler. I am only going to speak for Amtrak. I do not 
have the commuter number. But more than half of our ridership 
would touch the Northeast Corridor.
    Senator Blunt. OK.
    Do you have a reason why the northbound lane did not have 
the improvements that the southbound lane had where the 
accident occurred?
    Mr. Stadtler. Yes. So the system that is in place now in 
that area is automatic train control, and automatic train 
control is designed to prevent train collisions. And what that 
basically does is it takes the signal and it lets the engineer 
know if the railroad ahead is clear of other trains. It is not 
designed to enforce speed control.
    Senator Blunt. So coming south on that same stretch of the 
railroad, there would have been nothing that would have 
impacted the speed?
    Mr. Stadtler. What happened was in 1990, there was an 
accident in Back Bay, Boston, and after that accident, a group 
of safety experts, Amtrak, FRA, the freights, got together and 
said what can we do to prevent this type of overspeed accident 
from occurring again. We did an inventory of the curves, and 
anywhere where the overturn speed in the curve--so when you go 
through the curve--and the curve in Frankford is a 50 mile an 
hour curve, but the train is not expected to derail at 50. It 
is 98 or 96 miles an hour that the train would derail.
    So what we did--this group looked at every curve where the 
approach speed was greater than the overturn speed, and at 
those places, we used the automatic train control system to 
force the engineer to slow down. If you're approaching this 
curve coming southbound, as you point out, the approach speed 
is 110 miles an hour. So at that speed, the train would 
overturn if the engineer failed to slow down. Going northbound, 
the approach speed is only 80. So if you went into that curve 
at 80, you would not derail.
    Senator Blunt. Has anything been done to change the speed 
control on the northbound part of this curve since the 
accident?
    Mr. Stadtler. Yes. Immediately after the accident, the FRA 
issued directives that had us implement that same control at 
the northbound.
    Senator Blunt. And that has been done already?
    Mr. Stadtler. That was done before we returned it to 
service, yes.
    Senator Blunt. So that could have been done in any 60-day 
period before the accident as well.
    Mr. Stadtler. That is correct.
    Senator Blunt. Mr. Lauby, do you know what the original 
estimate of your organization was of what the implementation 
year should have been for positive train control?
    Mr. Lauby. I was not in this position at FRA. I do not know 
exactly what the recommendation was at the time.
    Senator Blunt. Do you have any idea what it was?
    Mr. Lauby. No.
    Senator Blunt. So you came to this hearing to talk about 
this and nobody told you the history of what your organization 
had said on positive train control?
    Mr. Lauby. Well, I know the history of the Rail Safety 
Improvement Act, which we have been working on for 4 years, and 
we know----
    Senator Blunt. I think your organization--I have been told 
at least--said originally it would be 2018 before this could be 
implemented.
    I think Mr. Mathias also--we have had FCC in here before. 
One of the big obstacles to most of the system is changing to 
essentially a tower-based system with some of the challenges at 
the FCC. Have those challenges now been dealt with?
    Mr. Mathias. Yes, sir. We have implemented a fast-track 
system that was adopted by the Advisory Council on Historic 
Preservation, which would be the agency responsible for this 
that enables the railroads to process their pole deployments 
quickly. We have the capacity----
    Senator Blunt. When did you implement that?
    Mr. Mathias. We implemented that a year ago in 2014.
    Senator Blunt. A year ago. And the law was originally 
passed when, Mr. Chairman? Somebody help me on this.
    The Chairman. 2008.
    Senator Blunt. 2008. So a year ago, you fast-tracked the 
essential tower sitings at FCC.
    Mr. Mathias. Yes, sir.
    Senator Blunt. And prior to that, how long did every 
tower--give me an estimate of how long every tower took to 
approve.
    Mr. Mathias. I think we had a national programmatic 
agreement in effect that required several months or more, 
depending upon the individual approving parties, and we have 
reduced that in many instances down to 30 days, and for certain 
poles that need to have a more comprehensive review, it is 50 
days.
    Senator Blunt. And there are over 32,000 towers?
    Mr. Mathias. We were told by the railroads that that was 
the total expectation for their pole deployment.
    Senator Blunt. But you are now doing that much quicker than 
you were a year ago.
    Mr. Mathias. Yes, we were. About 11,000 poles were deployed 
without the required review, and we dealt with that. 
Subsequently the railroads have submitted around 8,100 poles to 
us for deployment. We have the capacity to have received up to 
40,000. So we are ready for business and we can take more work.
    Senator Blunt. And the end date--Mr. Stadtler, as I 
understand it--my last question will be, if I understand this 
right, there is a different system that will be put in place in 
the Northeast Corridor than most of the rest of the country 
where you use freight rail. Is that right?
    Mr. Stadtler. That is correct.
    Senator Blunt. And your obstacle has been spectrum?
    Mr. Stadtler. On the Northeast Corridor, that has been a 
big----
    Senator Blunt. And have you announced when you are going to 
have the Northeast Corridor completed?
    Mr. Stadtler. The portion of the Northeast Corridor that we 
own and maintain from Boston to Washington----
    Senator Blunt. All but 50 miles. Is that right?
    Mr. Stadtler. Correct, 56--will be done by the statutory 
deadline of December 2015.
    Senator Blunt. Have you ever announced before that it would 
be done by a specific date?
    Mr. Stadtler. We have, since the legislation, been working 
toward the deadline of 2015.
    Senator Blunt. There was never a prior announcement that 
you would be done at the end of another year except this year?
    Mr. Stadtler. Not to my knowledge, no, sir.
    Senator Blunt. Thank you, Chair.
    The Chairman. Thank you, Senator Blunt.
    Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. So, Mr. Lauby, what happens if we do not 
extend the deadline of December 2015? What position will you 
take in terms of enforcement? Will they just continue to 
operate in violation of the law, or will you force all of these 
rail lines just to shut down?
    Mr. Lauby. Senator, thank you for that question.
    I think that it would be problematic if we shut down every 
rail line. When I talk about enforcement, we have a full raft 
of authorities that we can use, everything from an emergency 
order that could be used to shut down a railroad to compliance 
agreements----
    Senator McCaskill. I know you can, but I am asking what is 
going to happen. What will you do if we do not extend the 
deadline? What will you do on December 15 with the railroads 
that are operating without PTC?
    Mr. Lauby. We are going to have an enforcement strategy 
that leads us to implementation of PTC as quickly as possible.
    Senator McCaskill. So, I do not understand the answer to 
that question.
    Mr. Lauby. Well, we will use our authorities that we have, 
everything from emergency orders to fines to enforcement 
discretion, to negotiate with the railroads and make sure that 
PTC is implemented as quickly as possible.
    Senator McCaskill. You know, I think you get my question. 
Right?
    Mr. Lauby. I do.
    Senator McCaskill. If we do not do this, the day is going 
to come and then people are going to be calling your office and 
say, what are you going to do? Are you going to start by fining 
them? Are you going to start by warning them? Are you going to 
start by--have you all discussed what you are going to do? 
Obviously, I would hope you have discussed it at this point, 
because this deadline is looming, and obviously they are not 
going to be in compliance. I mean, that is as obvious as the 
nose on my face.
    Mr. Lauby. Senator, we discuss our enforcement options 
every day on what we are going to do on January 1. We are also 
preparing as part of our report to Congress, this latest status 
report, some options on how we would approach this.
    Senator McCaskill. I think we really need to talk about it, 
because as we are trying to figure out whether to extend this 
deadline, none of us wants the railroads to not work at this as 
hard as they know now and all of you to work at it as hard as 
you know how. But I think we need to understand what are the 
consequences of us not acting. Are we helping safety if we do 
not delay the deadline? Are we hampering safety if we do not 
delay the deadline? Are we diverting resources away from what 
should be going toward the implementation into fines or other 
kinds of things? I think the scenario of what will occur if we 
do not needs to be more fleshed out.
    So whatever help you can give us with that in terms of 
being more specific about what you would do, because you all 
pretty much know right now, if we do not delay it, who is going 
to not be in compliance and to what extent. So whatever plans 
you have--it would be great if you would share it with us. 
Maybe it would spur us to more thoughtful action.
    Mr. Lauby. Senator, we will cover that in our status 
report. We do consider these situations on every enforcement 
action that we take and our enforcement is not to punish the 
railroads. It is to get them into compliance as quickly as 
possible.
    Senator McCaskill. That is great.
    Mr. Lauby. All that is considered.
    Senator McCaskill. On the FCC stuff, this problem we had 
figuring out the phone records--this is not the first time that 
we have had a problem. I think we had a Coast Guard captain 
that was--it came out that he was using his cell phone. As it 
turns out, it was not true because the text messages and the 
phone calls were in different time zones, and this notion that 
all of the calls are routed to the same tower--it depends on 
capacity. All of this you know better than I do.
    Has there been any thought at the FCC about talking to the 
carriers about having their records more uniform? I mean, this 
has gotten to be a real labyrinth of figuring out whether or 
not someone was using either text or an app or a phone call at 
the time of some kind of accident or crime, or something that 
is the subject of a thorough investigation. Have you all 
thought about that at the FCC?
    Mr. Mathias. Senator, I appreciate your concern, and 
unfortunately, I am not the right person at the FCC to ask. 
What I would like to do is to get back to you with an answer 
with the right people.
    Senator McCaskill. Yes, that would be great because I think 
we kind of need to know that. It took 4 weeks for them to 
figure out whether or not this conductor was using his phone. 
That is a long time to figure that out. I think we just found 
out earlier this morning.
    And then finally, quickly I would like something for the 
record, because my time is up. I am really worried about 
passenger traffic in Kansas City, in St. Louis, Amtrak service. 
This is a big problem. As you know, both of those trains are 
being widely used. Ridership is way up in Missouri. It is a 
vital link between Kansas City and St. Louis for tens upon 
thousands of Missourians. And we have a standoff here that I do 
not know how we are going to get resolved. You referenced it in 
your testimony where you have got Class I railroads that own 
Class III railroads that are not required to put it in, but 
because Amtrak goes through there, they are required to put it 
in. So, therefore, they are saying they do not have to pay for 
it and there is no way Amtrak in Missouri can pay $30 million 
for this. I mean, they are scraping pennies every year to get 
by and have to take a subsidy from the Missouri State 
legislature to do so.
    So I am hoping that big Amtrak has some ideas on how we can 
get everybody to the table and get this resolved quickly, 
because I have a feeling that Senator Blunt and I are going to 
be blamed, not that we do not deserve a lot of blame for a lot 
of things. But I have a feeling that if all of a sudden over 
the Christmas holidays, everyone starts learning there is no 
more Amtrak service in Missouri, that is going to be a big 
deal.
    Mr. Stadtler. I agree. There are a lot of riders there and 
it is an issue we do need to get resolved.
    Senator McCaskill. So I know that I can speak for Senator 
Blunt in this regard, that both of us stand ready to be helpful 
anyway we can.
    Mr. Stadtler. Thank you.
    Senator McCaskill. Thank you.
    The Chairman. Thank you, Senator McCaskill.
    Senator Manchin is up next.

                STATEMENT OF HON. JOE MANCHIN, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Mr. Chairman.
    There is so much going on here and what has happened. First 
of all, my deepest sympathy goes out to the families of the 
loved ones and all those who were injured and those that lost 
their lives from this tragic accident.
    I want to focus more on from flying an airplane--and 
basically we are moving anywhere from 10,000 feet and below at 
250 miles an hour legally. Above 10,000, it is uncontrolled. 
But we are in total control of the atmosphere.
    So now on the trains, we are seeing like it is almost 
impossible for us to have this positive control. And what it 
sounds like to me is situational awareness. I do not know. In a 
train, do you all have GPS screens, situational awareness, like 
I know where I am at, the same as I do in my car?
    Mr. Stadtler. Right now on the passenger trains, we do not 
have that, no.
    Senator Manchin. That is the simplest, cheapest thing. It 
is in every car, if you know what I am talking about. You set 
your GPS. It tells you where you are. I think the guy just lost 
his situational awareness thinking he was out of the turn 
before he was into the turn, it sounds like. I mean, just 
everything leads to that.
    So do you all have any plans of putting just situational 
awareness into your trains?
    Mr. Stadtler. We have an extensive training program where 
all of the engineers must be certified on the physical 
characteristics of the railroad that they are allowed to 
operate on.
    Senator Manchin. I know that. But I am just saying the 
technology is so simple and it is so advanced. It just baffles 
me.
    I have got to be honest with you. It looks like you all, 
for the sake of budget constraints, bottom line, profit 
margins, return on investments--is making decisions that 
basically should never have been made without us putting the 
hammer on you all to do it differently. And, we should not have 
to. It is advancing technology. It advances so rapidly. We are 
talking about positive train control.
    My goodness, when I am flying, I am in control. I am the 
pilot in command responsible. I understand that. But you got to 
give me the wherewithals. I got TCAS. I got everything going 
on. I know where everybody is. I know what I am supposed to do. 
But, you talk at night and you are up there and it is bad 
weather, and he is supposed to know every little crook and turn 
in the train track?
    Mr. Stadtler. I would strongly disagree that we are making 
any decisions that would impact safety for business reasons.
    Senator Manchin. I would hope you would.
    Mr. Stadtler. Safety is the most important thing at Amtrak, 
and the safety of our passengers, our crews is the most 
important thing.
    Senator Manchin. And I ask you this question. Have you all 
ever at a high level--at your level, have you ever spoke about 
the technology that is available that could make it much safer 
at a very low cost?
    Mr. Stadtler. Two answers to that. The first one is what 
the engineer does have in the cab now is the signal that they 
are operating under shows up right in the cab. So that goes 
right into the cab. But, we have been focused at the highest 
levels of Amtrak on getting positive train control in place on 
our network.
    Senator Manchin. Well, you can imagine the frustration you 
are hearing from everybody on this panel right now. Until this 
deadly accident, you were able to do it before you put it back 
in service. It could have been done before and prevented the 
accident.
    Mr. Stadtler. That is using the automatic train control 
system, which is not designed to enforce speed. And what we did 
back in 1990, the safety group got together and determined 
where the highest risk----
    Senator Manchin. I am just saying that until--you know, we 
have a timetable for this to be put in. Until we meet that 
timetable, you can meet it. The most inexpensive way, 
situational awareness, is a visual screen that everybody pretty 
much has on their automobile today. Something as simple as 
that, sir, might be a solution that could maybe really saving 
lives.
    Let me just go into another area that I want to talk to. 
Should we add trains carrying crude by rail to the list of PTC-
required systems?
    Dr. Dinh-Zarr. Thank you, Senator, for that question.
    Absolutely that is a recommendation of the NTSB.
    Senator Manchin. What timetable do we have on that?
    Dr. Dinh-Zarr. That is up to the Congress. Just as for 
passenger rail and any other rail, crude-carrying rail--we 
support the fastest implementation of PTC possible.
    And I should mention, Senator, that PTC is in a way a type 
of situational awareness technology because we leave the 
technology up to the railroad companies to use, but it provides 
a system of knowing where the train is at all times for both 
the engineer, and should an emergency situation happen.
    Senator Manchin. My time is running out, and I want to be 
reasonable with this in this request. Could you report back to 
this committee--if I could ask officially from the Committee, 
Mr. Chairman--what evaluations you have on immediate safety 
procedures you could put in with technology or anything that is 
available that you could consider? I am not asking you to spend 
money on redundancies or things that will be outdated. But with 
the technology that is available now that might make the whole 
rail system much safer than what we have. Because I know we are 
talking about the time element, can we meet the time element 
with the PTC, is that possible, or on a case-by-case approach 
versus an extension quickly as humanly possible on PTC. It 
seems like we are going to be missing all these deadlines 
anyway. Can you get back with us and tell us what you are 
considering, what the discussions and what your timetable would 
be to implement other technologies that might be a heck of a 
lot safer for you?
    Mr. Stadtler. If you are directing that to Amtrak, Amtrak 
can certainly----
    Senator Manchin. I would say Amtrak. Passenger too. But I 
would also say from NTSB basically on train and rail safety, if 
you can do it on freight trains too? The crude has increased 
5,500 percent.
    Dr. Dinh-Zarr. Yes, sir. Senator, we would be happy to 
provide you any information you'd like.
    Senator Manchin. I would really like to. I mean, the 
timetables that you are going to be able to meet on this 
because we have an awful lot of crude moving through West 
Virginia. We just had an accident there. It could have been 
devastating. Thank God we had no deaths or injuries, but it 
could have been devastating. So we are very much concerned 
about that. And these are happening at low speeds.
    I am sorry, Mr. Chairman. My time is up. But I would like 
to get with you all further in details on this.
    The Chairman. Thank you, Senator Manchin.
    I mistakenly overlooked Senator Blumenthal. Senator 
Blumenthal, you are up.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman, and thank you for 
having this hearing, which I think is profoundly important.
    I want to begin where Senator McCaskill ended, just to say, 
in terms of blame, that Congress should be and will be blamed 
if we postpone the deadline for 5 or 7 years as right now the 
proposal is to do. And let me just suggest very strongly--Ms. 
Dinh-Zarr, you used the term ``transparent accountability''--if 
there is any postponement, my strong feeling is that it ought 
to be in accordance with the alternative legislation that has 
been proposed, which would be a year-by-year postponement in 
that deadline with the burden on railroads to show why they are 
failing to meet that deadline, meeting a burden of proof that 
is stringent and strong and requires them to show how they are 
going to meet that deadline in the future, and a maximum 
postponement for only 3 years.
    I think most of the riders who are beginning the journey 
from Washington, D.C. to New York today just a few blocks from 
here would be absolutely dumbfounded and outraged by a lot of 
this discussion. We are a nation that put a man on the moon. We 
are operating a vehicle remotely on Mars, but our railroads 
have not yet implemented a technology that is existing, it is 
feasible and practical and affordable.
    The kind of tragedy at Philadelphia is not only 
preventable, but predictable. It is predictable in every one of 
our states not only for commuters and rail riders, but also for 
freight. The tanker cars that are being transported now with 
potentially lethal and explosive materials also need this kind 
of positive train control.
    So I think that the FRA has been as much part of the 
problem as the solution. And, Mr. Lauby, I would like a 
commitment from you that the FRA will, in fact, impose fines on 
railroads that have failed to implement positive train control 
if they fail to do so by 2015. We are talking about fines, not 
shutting down railroads, but fines that you have the power to 
do, $25,000 a day up to $105,000 a day in the event that there 
is grossly negligent failure to implement this technology, 
fines that are appropriate. I would like a commitment from your 
agency that you will enforce this law.
    Mr. Lauby. Senator, I cannot make that commitment today.
    Senator Blumenthal. Why can you not make that commitment 
today, that the FRA will implement and enforce a law?
    Mr. Lauby. I can make a commitment that we will enforce the 
law.
    Senator Blumenthal. So you will impose those fines where 
appropriate?
    Mr. Lauby. We will use all the tools that we have at our 
discretion in order to make sure that we get compliance as 
quickly as possible. And that can include fines. That can 
include everything that is in our toolbox.
    Senator Blumenthal. Will you make a commitment that you 
will implement other recommendations for rail safety that have 
been made by the NTSB? I think there are 60 or 70 outstanding. 
Is that correct, Ms. Dinh-Zarr?
    Dr. Dinh-Zarr. That is correct.
    Senator Blumenthal. That is correct. Will you make that 
commitment?
    Mr. Lauby. Senator, we take every one of those 
recommendations seriously. We are working through them and 
trying to satisfy as many of those recommendations as possible.
    Senator Blumenthal. Well, if I were a rider listening to 
this testimony, I would be dumbfounded and outraged. The 
recommendations have been outstanding for years, and they have 
not yet been implemented. Why is that?
    Mr. Lauby. Senator, we look at all our work. We prioritize 
our work. We try to move forward where we can make progress on 
issues that we feel have the biggest safety impact. And we have 
a long list of initiatives that we move forward with, and we 
prioritize them and we move forward as quickly as we can. We 
look at every one of NTSB's recommendations. We see how it can 
be implemented. We also see if it has any other safety 
implications that need to be considered or if we need to do 
research to better understand the issue and make sure we have--
--
    Senator Blumenthal. I know, Mr. Lauby, since my time is 
about to expire--I apologize for interrupting. I know that you 
are the messenger, and you are coming to us with a message that 
I find completely unacceptable about delay and nonfeasance, as 
I have said repeatedly. And we have heard much the same 
language from witnesses in your position in the past.
    But I think the overriding fact here is that there is 
nothing new or novel about these accidents. As Ms. Dinh-Zarr 
said so eloquently, going back to Darien, Connecticut 45 years 
ago, the need for this technology was clear. There is nothing 
new or novel about the crashes and derailments, and there is 
nothing new or novel about the technology. What we have seen 
here is a failure of will.
    And I think that the blame will be on Congress and on the 
agencies in the Federal Government that have responsibility for 
enforcing this law. Enforcement is about expectations. Right 
now, the expectation is that this law will not be enforced. And 
my fear is that that expectation will be self-fulfilling.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Peters?

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    Nearly 3 weeks ago, I rose on the Senate floor to 
commemorate the life of Rachel Jacobs. Earlier that morning, I 
had attended her funeral. It was an incredibly sad event, one 
of the saddest I have ever attended. Rachel was tragically 
killed in the horrific Amtrak crash that we are here to talk 
about here today. She was only 39 years old when her life was 
tragically cut short. She was the beloved daughter to dear 
friends of mine, Gilda and John Jacobs. She was a wife. She was 
a mother to a beautiful 2-year-old son and the CEO of an 
education startup in Philadelphia. And although she lived in 
New York, she never forgot her roots in the Detroit area. She 
was the cofounder of Detroit Nation, an organization that 
engages former residents of the Detroit area in cities and 
communities across our great country. We have suffered an 
incredible loss in our area and our families with the passing 
of Rachel Jacobs, and my heart certainly goes out to her family 
and to the families of the seven other victims of this tragedy.
    This accident was likely caused by human error. We are 
still grappling to get more information as a result of that. 
And certainly, positive train control is designed to address 
the kind of human error that may have been the contributing 
factor to this error, which means that it could have prevented 
this accident.
    And what is so troubling to me is the NTSB has been saying 
since 1990--since 1990--that we need PTC on our rail networks 
in order to prevent accidents, like the one that we just saw 
and to save lives. And I know implementing this is costly and I 
know it is complicated, as we have heard here, but we have to 
move forward with the utmost haste to get this job done.
    Every day we delay, we increase the odds of another tragic 
accident. And anybody here who is advocating for a delay in 
PTC, I would just ask them to put themselves in the shoes if 
they have to look in the eyes of that father, her mother who 
lost a child or a spouse or to see that young kid. This is an 
issue that we cannot accept failure at. We have to deal with.
    And it is clear from the testimony today that we have a 
ways to go, but what is really troubling to me is that we had a 
situation with the automatic train control from Amtrak that 
potentially could have prevented this accident as well. It is 
my understanding and what I have heard from the testimony today 
is that back in 1991, 400 people were injured in an overspeed 
derailment. So Amtrak then took steps to address speed on 
various curves. And to think that even though we do not have 
positive train control, that this ATC could have prevented this 
accident--and the fact it was installed on the southbound track 
and not on the northbound is even more disturbing that it could 
have been prevented.
    My question to you, Mr. Stadtler--and we have heard that 
you have since made these corrections on that curve--what the 
expense, time commitment necessary to make that change on that 
curve?
    Mr. Stadtler. First, let me respond. The safety of our 
passengers and our crew is the most important thing to Amtrak, 
and we deal with it and talk about it every day. We are 
heartbroken and saddened by the incident, and it was 
devastating to us as well. And from the beginning we took 
responsibility for our part in the accident. And I too--my 
heart and thoughts and prayers go out to all the families of 
the deceased and the victims injured.
    I do not have the cost of putting that in. I will say that 
the limitation of the system is such that it is designed for 
avoiding train collisions and not for overspeed. The 
limitations make it so you can only do certain reductions. So 
you can only force the engineer to go down to 45 miles an hour, 
30 miles an hour, or 20 miles an hour. So it is not a feasible 
system to use for speed control up and down the corridor. Part 
of the reason why when we looked at the curves back in 1990-
1991 was the limitation of the system made it so we only 
identified the highest risk curves. The railroad was safe for 
28 years. It has been 28 years since a fatal derailment. Again, 
this tragic event made us relook at the criteria under which we 
applied those corrections. We have worked with the FRA through 
their emergency order to identify other curves. There are about 
six more that we have protected.
    But to your point, positive train control is the system 
that will prevent these accidents.
    Senator Peters. But this system could have slowed this 
train down had it been identified?
    Mr. Stadtler. Had we put a code correction in place at that 
curve----
    Senator Peters. Which is a pretty minor change to put a 
code correction in?
    Mr. Stadtler. It is. At that particular location, it is 
pretty minor. I would say that is a fair statement.
    Senator Peters. So a minor correction on this track could 
have prevented this accident and saved these lives?
    Mr. Stadtler. Again, there are numerous places up and down 
the corridor that have the high risk curves that were 
identified by this safety group with Amtrak.
    Senator Peters. Why was this not identified as a high risk 
curve when, obviously, we had a terrible tragedy on this curve?
    Mr. Stadtler. The methodology, when we made those 
decisions, looked at the approach speed and if the approach 
speed was high enough to cause the derailment in the curve 
because the approach speed going northbound was 80, and the 
speed of 80 in that curve would not have caused a derailment. 
It was not deemed to be a high risk curve.
    Senator Peters. So you do not consider the fact there might 
be human error or an engineer is traveling faster than the 
speed limit?
    Mr. Stadtler. At the time of the decision, the theory was 
we thought the human error--we assumed the human error would 
not be slowing down for the curve. We did not take into account 
the fact that the person may be speeding--the engineer could be 
speeding going into it.
    Senator Peters. So now you are correcting that matrix 
throughout the system on the corridor?
    Mr. Stadtler. We have complied with the emergency order and 
we are working on identifying the curves where the situation 
exists that the FRA identified, and we are making additional 
corrections.
    Senator Peters. And when will all those be completed?
    Mr. Stadtler. Some of them are completed now. We are 
working with the FRA on a mitigation plan, but it will be soon.
    Senator Peters. When do you expect that? You say soon. What 
does that mean?
    Mr. Stadtler. I do not have the answer for all of them, but 
it is within weeks.
    Senator Peters. Obviously, it has to be as soon as 
possible, and then we have to work on positive train control.
    I know I am out of time, but, Chairman Thune, I would 
certainly hope that we need to have another hearing after the 
NTSB has come back with their findings, if we could have a 
hearing to really delve into this because this is, obviously, 
of extreme importance to so many people.
    The Chairman. Thank you, Senator Peters.
    Senator Booker?

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you, Mr. Chairman.
    We are obviously here with heavy hearts, and everyone has 
expressed that from our people giving testimony to other 
Senators about the regret and condolences we give to the 
families of those that were killed, and all those who were 
injured and are still recovering.
    I would like to really just drill down to some of what the 
key issues are in preventing us from getting PTC implemented.
    And the first is, Mr. Lauby, you highlighted in your 
testimony that people are having trouble or railroads are 
having trouble, implementing PTC because of the cost. The cost 
of funding PTC is a big challenge, and I guess I am wondering 
do commuter railroads have enough money to implement positive 
train control? What are the concerns you are hearing from them 
with their limited budgets?
    Mr. Lauby. Thank you for that question, Senator.
    The cost is certainly a driving factor for the commuter 
railroads. The commuter railroads are public agencies. They 
operate budgets similar to the way the Federal Government does 
where they have to look 3 years ahead to get funds. The cost of 
PTC is quite high, $3.48 billion for the public commuter 
agencies, and at this point they have spent $950 million. So 
they have a long way to go. We feel that the Government has a 
role in funding this positive train control improvement.
    Senator Booker. I am sorry to interrupt you. The Federal 
Government has a role to play.
    Mr. Lauby. We have asked for $825 million specifically to 
support positive train control implementation on public 
commuter rail agencies. We have asked for that in 2015 and 
2016.
    Senator Booker. So Amtrak along the Northeast Corridor will 
have their PTC implemented by the end of this year. Correct?
    Mr. Lauby. Correct.
    Senator Booker. And were they able to do that, Mr. Lauby, 
in your estimation by robbing Peter to pay Paul in preventing 
investments in other areas? How did they get it done in the 
Northeast Corridor by the deadline or by the end of this year 
and other folks are not able to?
    Mr. Lauby. Well, to Amtrak's credit, Amtrak started long 
ago with the voluntary application of the ACSES system. They 
were developing it before the PTC mandate was ever issued on 
RSIA. We have been working with them for years on that.
    Senator Booker. And financing mechanisms. The MTA was 
recently approved by the FRA, about $987 million in rail 
financing. I am looking at this myself with some legislation we 
are looking to introduce to make this program more accessible. 
Is that a possible way to help finance PTC implementation?
    Mr. Lauby. It is. It is based on loans. Someone has to pay 
those loans, but the more funds that are accessible to the 
commuter railroads, the quicker we will get this in place.
    Senator Booker. Right. And I guess I share a lot of the 
frustrations as expressed, and I appreciate the panelists for 
enduring what is understandable frustration amongst my 
colleagues and I, but I also do not want to shirk the 
responsibility that we have. We are debating right now more 
than a half a trillion dollars for national defense, and when I 
think of defense of this country, it is also this idea that we 
should be defending people in the homeland from tragedies that 
are occurring because of an infrastructure that has fallen way 
behind our global competitors. America is number one. That is 
what I believe. But yet, we have an infrastructure that is 
ranked well out of the top 10 compared to other nations that 
have faster moving trains, more efficient, safer, faster ports, 
better aviation infrastructure, and roads and bridges are 
crumbling, threatening our Nation.
    And so I understand that there is a lot of responsibility, 
frankly, that is represented by the people that are giving 
testimony here, but the fact that one of the biggest reasons I 
am hearing is because of a lack of resources, often small 
changes that could be being made that we are not investing. 
That is very frustrating to me.
    Two more quick questions in the limited time.
    As soon as the accident happened, Amtrak was ordered to put 
a lot of other safety measures in place. And that should not be 
isolated, obviously, to just the Northeast Corridor. Our entire 
Nation should do the common sense safety implementation. The 
things that were done post-accident could have been done pre-
accident, and I want to make sure they are being done all 
across our commuter rail systems in America.
    Mr. Lauby. Senator, we issued a safety advisory yesterday 
that takes many of the solutions that improve safety on the 
Amtrak corridor and asked the other commuter railroads to 
consider making changes to implement those same types of 
solutions.
    Senator Booker. Just real quick, Mr. Mathias. The 
congestion within the Northeast Corridor in the New York-New 
Jersey region or in the Northeast Corridor in general--are you 
concerned about interference as an issue for the implementation 
of positive train control? Is that a real issue that we in 
Congress should be focusing on as well?
    Mr. Mathias. Thank you, Senator. Interference is a concern 
in any spectrum-related activities. It is a concern in this 
case not only train to train, but also potentially trains 
interfering with adjacent TV stations. For this reason, 
spectrum licensees engineer their systems carefully. They work 
these problems out. And in this case, Amtrak, as well as the 
freight rails, have assured us that they are designing their 
systems to operate so that they do not interfere with each 
other. To the extent that they do, we stand ready to engage 
with them, to help them find solutions.
    Senator Booker. Mr. Chairman, thank you very much.
    The Chairman. Thank you, Senator Booker.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thanks for 
holding this important hearing.
    And I do too want to express my sympathies to the families 
who have lost loved ones in these accidents.
    I wanted to go to you, Mr. Lauby, because in the State of 
Washington, operating entities for both the commuter and 
passenger rail service expect to be ready to operate the PTC by 
the end of the year. So I know my colleagues have talked about 
a couple of different issues, but I am talking now about the 
actual testing, because the Federal Railroad Administration 
will have to do the testing to get that operational. So are we 
going to be ready to have that testing done with those entities 
so that this can be operational by the end of the year?
    Mr. Lauby. The testing itself is conducted by the 
individual railroads. The process is that the railroads provide 
the test plans to FRA. FRA approves the test plans. The tests 
are conducted with some oversight by FRA. We are not on every 
train, but we are engaged with the test engineers. Once the 
tests are completed, the results of those tests are used to 
support system certification and the safety plan that moves 
forward to certifying the entire system.
    Senator Cantwell. So has the FRA laid out the type of 
testing that will be required for both the commuter and the 
freight rails?
    Mr. Lauby. The type of testing is laid out in the 
regulation, and the type of testing--we have technical experts 
that work with all the authorities to help them make that 
determination and understand those requirements.
    Senator Cantwell. So you do not believe that FRA is any 
part of an issue that would be a delay in this implementation 
by the end of the year?
    Mr. Lauby. No, Senator, I do not.
    Senator Cantwell. And what about--my colleague from West 
Virginia mentioned this issue, particularly as it related to a 
larger emergency concern on the movement of crude by rail, 
which is voluminous both in his state and in mine. And in 
Washington, BNSF is part--since they own so much of the track, 
is a part of the partnership in the system implementation of 
positive train control. So you do not see any delay in being 
able to apply that either on the crude by rail system?
    Mr. Lauby. Many of the crude by rail routes are going to be 
on track that would be PTC-equipped, because these are really 
on the high capacity tracks. It is not true in all cases. We 
have talked about potentially a requirement for PTC on the 
crude by rail routes. The accidents that we have had, even in 
Senator Manchin's State, have not been caused by train-to-train 
collisions. They would not have been PTC-preventable so far, 
but there is a risk of train-to-train collisions with crude oil 
and any type of train. So that is something to be considered. 
But again, many of the crude oil routes are already covered or 
will have PTC installed on them.
    Senator Cantwell. But in a runaway train scenario, they 
would be very helpful. Correct?
    Mr. Lauby. In a runaway train where we have a failure of 
the brakes or failure to control the train, PTC will not stop 
that collision either.
    Senator Cantwell. In a locked mechanic type of situation 
where--for whatever safety procedures were not followed and 
then the train started moving down the track?
    Mr. Lauby. If the brakes will not hold the train on a 
grade, PTC basically relies on the train brakes to enforce the 
signal restrictions or the speed restrictions. If the brakes do 
not work, PTC would not be effective.
    Senator Cantwell. So back to BNSF and the Northwest. So you 
believe by the end of this year, there is no reason why the 
Pacific Northwest, both on commuter and on freight, should not 
be able to operate positive train control?
    Mr. Lauby. I can give you some details and update, but I do 
not know of any specific challenges that we have in not 
supporting that program. If BNSF is ready to implement there, 
if the commuter railroads are ready to implement there, then I 
do not see anything standing in the way.
    Senator Cantwell. Certainly not FRA's testing?
    Mr. Lauby. Not FRA's test, and again, it is not FRA's 
testing. It is the railroads' testing. They have to complete 
it. They have to provide a safety plan so that that system can 
be certified.
    Senator Cantwell. Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    Right now, every one of us, all of us, in this room, 
Senators, Amtrak, the Federal Railroad Administration, NTSB, 
the FCC--we need to do everything we can to facilitate the 
quick installation of positive train control, PTC, along our 
Nation's railroads.
    PTC really stands for protecting train customers, 
preventing train collisions. That is what it really stands for. 
And it has not been implemented fully and it has to be in a 
timely fashion.
    And that is why I have cosponsored with Senators Feinstein 
and Blumenthal and Nelson the Positive Train Control Act, which 
would hold railroads accountable for implementing PTC systems 
as quickly as possible.
    A recent study estimates that Amtrak needs $21 billion in 
capital investments just to get the corridor to a state of good 
repair and lay the foundation for future demand.
    Well, last night, the House Republicans voted to cut 
Amtrak's budget by over $200 million, and that is unacceptable 
because by cutting Amtrak funding, they are playing a dangerous 
game of railway Russian roulette, making tough decisions 
necessary by the people who are sitting at this table in terms 
of what will, in fact, get funded.
    So, Mr. Stadtler, how important is it that we see continued 
investment in Amtrak to ensure continued upgrade of the 
Northeast Corridor and throughout the country? If the 
appropriations bill the House passed last night becomes law, 
what types of critical safety technology tradeoffs will Amtrak 
have to make, and what other negative impacts will customers 
experience as a result of these misguided cuts?
    Mr. Stadtler. Thank you, sir.
    Continued funding is obviously critical. Consistent funding 
is critical as well. As has been well documented up and down 
the corridor, we have aging infrastructure that has been under-
invested in. We have 100-year-old bridges all up and down the 
corridor, and we have lacked the resources to upgrade them and 
maintain them on a regular basis. We have always put safety 
first. We have used the limited funding we have to make sure 
that we will have positive train control in place by the 
legislated deadline. We have used the funding we have to equip 
our locomotives off the corridor to ensure that we are ready 
when the freights are ready to have train control in place. But 
you are right. With limited funding, it presents us with very 
difficult decisions moving forward.
    Senator Markey. Well, Mr. Stadtler, you mentioned concerns 
that there are places where Amtrak and the freight railroads 
use different potentially interfering spectrum for their PTC 
systems, including on the crowded Northeast Corridor between 
New Haven and Boston. What steps has Amtrak taken to ensure 
that that interference will not be a problem?
    Mr. Stadtler. We are working very closely with the FCC. We 
are working very closely with the freight railroads that have 
the I-ETMS system on their right-of-way that is in close 
proximity to our right-of-way. We are doing significant testing 
and working closely so when there are interference issues, we 
use one of the many mitigating tools to reduce the risk there.
    Senator Markey. Well, let me go to you, Mr. Mathias. What 
is the FCC doing in order to make sure that these separate 
systems do not wind up interfering with each other?
    Mr. Mathias. Senator, we are fully engaged with all the 
parties, including with Amtrak and the freights, to encourage 
their discussions and the work of their engineers to work out 
these issues. Should those issues not be able to be engineered 
away, we are standing ready to help them find additional 
spectrum, if that is required, either through acquisition or, 
potentially, through exchanges of comparable spectrum.
    Senator Markey. So how close are we to making the decision 
as to whether or not the engineering issues can be resolved, 
and as a result, you would have to move on to finding 
additional spectrum?
    Mr. Mathias. Senator, we had our first discussions about 
this issue with both Amtrak and freight rail officials less 
than 2 weeks ago. We have already had follow-up meetings. It is 
too early to say, but we are clearly moving quickly on this. We 
understand the importance and the criticality to PTC 
deployment.
    Senator Markey. Do you have a goal, Mr. Stadtler or others, 
in terms of when this issue should be finally resolved?
    Mr. Stadtler. We are using the 220 megahertz now frequency 
on the North End between New Haven and Boston, and we will have 
that implemented by December. Because the freights are a little 
bit behind us, we do not envision any issues that will prevent 
us from putting our system in place, and we will just work 
closely with them as they implement to ensure that issues are 
mitigated.
    Senator Markey. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you to all of you.
    I was at an export meeting, and I saw Secretary Foxx there. 
And I think everyone is very focused on what happened with this 
crash and the sad, tragic loss of life. And it just puts a 
renewed focus on our Nation's infrastructure. We, of course, 
had this already in Minnesota years ago with our bridge 
collapse, and we have seen a number of derailments in the 
Midwest because of increased use. We just had a bridge just 
fall down in the middle of--a very small bridge near 
International Falls, Minnesota. There were no injuries, but a 
train went right into the river just because we have 
infrastructure needs. So my focus right now honestly is on 
infrastructure funding, our transportation bill.
    But beyond that, I know a lot of my colleagues have 
specifically asked about the PTC issues, and I want to go back 
to something that Senator Markey was just talking about with 
you, Mr. Mathias, and that is spectrum. As more and more 
consumers and technologies come to rely on wireless 
technologies, whether it is PTC or connected cars or increased 
demand for mobile broadband, are we going to continue to see 
demand for more spectrum? And as we know, it is a competitive 
market in terms of auctions, and how do you see the FCC 
balancing the spectrum of needs from safety enhancements like 
PTC and the other commercial demands? And do you think the PTC 
system currently has enough spectrum to operate national?
    Mr. Mathias. Senator, thank you for that question.
    Obviously, the FCC is fully engaged in finding and making 
available to the public the spectrum that everybody needs for 
these advancing systems.
    With respect to PTC, we believe--we have been informed by 
the freight railroads, that they have met their needs across 
the country. We understand that Amtrak as well has their needs 
in the Northeast Corridor, and we believe that the commuter 
rails in many locations, including in Puget Sound and San 
Francisco and Los Angeles and San Diego and Chicago, where 11 
railroads are using the same system and the same spectrum, and 
even in the Northeast Corridor--we think that they do have the 
spectrum or certainly are close to getting it.
    Senator Klobuchar. Thank you.
    Mr. Stadtler, Amtrak operates a 21,300-mile system that 
provides service to vibrant communities in 46 States, and the 
network reaches about 40 percent of America's rural population. 
What is Amtrak doing to ensure it continues to provide reliable 
service and safe service in rural America?
    Mr. Stadtler. Safety is our number one priority every day. 
We are working very hard to put positive train control in place 
on the infrastructure that we own and have responsibility for. 
And in the areas where we do not have the responsibility for 
the wayside infrastructure, we do have the responsibility to 
equip our fleet with interoperable radios and electronics, and 
we are committed to doing that and we will have that done by 
December of 2015.
    Senator Klobuchar. So you think that it will be the same in 
the urban and rural areas, or do you think there will be a 
difference?
    Mr. Stadtler. Where there are requirements for PTC under 
the rule that applies in the rural areas, absolutely.
    Senator Klobuchar. A December 13 GAO report found that FRA 
faces several rail safety challenges, including that the 
inspectors only have the capacity to inspect less than 1 
percent of all railroad activities. The FRA, as you know, 
partners with states to oversee the inspections of the tracks 
and the signals. We only have a handful of inspectors in our 
state, and I know there is a specific need for more track 
inspectors. I have tried to get increased funding for more rail 
inspectors, because I believe it will help with derailments. In 
your view, is there a sufficient number of track inspectors to 
oversee the tracks that we have in our country, Mr. Stadtler?
    Mr. Stadtler. We do not actually own the track inspectors. 
So I would defer that to FRA.
    Senator Klobuchar. OK.
    Mr. Lauby. Yes. We can always use more track inspectors. As 
the report said, we were able to touch 1 percent of the 
railroad system. Additional track inspection is important. We 
have initiatives going on right now to try to address some of 
the track issues that we have seen with the crude oil routes 
and some of the more recent derailments. But we are taking a 
more active look at crude oil routes. We are hiring additional 
track inspectors right now to dedicate to those routes to 
provide a higher level of safety.
    Senator Klobuchar. Thank you very much. Thank you to all of 
you.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Gardner?

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman, for holding this 
hearing today.
    I just want to go back over some of Mr. Stadtler's 
testimony. Just so you know, Mr. Stadtler, I think in May of 
this year, the State of Colorado committed to spending $1 
million for track maintenance along the Southwest Chief line. I 
think the State of New Mexico has matched Colorado's effort by 
also committing $1 million to track maintenance. Kansas has 
also agreed to support the effort. There are other efforts 
ongoing to support this line.
    In your testimony, you state that the dispute between the 
Kansas City terminal and Amtrak over who is required to take on 
the cost may lead to closure of the line. Have you actually 
exhausted all options? Have you looked at every nook and cranny 
of your budget? Have you taken every step possible to avoid 
having the line rerouted or closed?
    Mr. Stadtler. I would say we have not exhausted all 
options. We are working closely with KCT and with the Class I 
railroads that own KCT. Even though KCT is a Class III, it is 
owned by Class I's. As you know, KCT has hundreds of freight 
trains that go through there every day, and we have about a 
half a dozen passenger trains. I would not say, though, we have 
exhausted all options. We have already contributed $5 million 
toward PTC at the Kansas City Terminal, and we continue to 
actively search a resolution.
    Senator Gardner. Could you provide my office with a list of 
the steps and measures that you have discussed and looked into 
and then possible solutions as well that you are considering?
    Mr. Stadtler. Certainly.
    Senator Gardner. And do you believe that an extension of 
the deadline for implementation would assist in resolving this 
dispute of some kind?
    Mr. Stadtler. I do not believe that this specific situation 
has anything to do with the deadline. No.
    Senator Gardner. Why not?
    Mr. Stadtler. Because KCT has been pretty active in getting 
train control in place. I cannot speak to their schedule, but I 
do not believe there is a deadline issue there.
    Senator Gardner. Maybe we could continue the conversation 
on that, because I think there are alternatives that we could 
pursue to make sure that the outcome of what you outlined in 
your statement does not actually materialize in regards to this 
particular line.
    Do you believe that long-distance lines--I mean, if you go 
to Colorado, if you go to southwest Kansas, if you look at the 
impact this has on those communities, and the Arkansas Valley 
in Colorado, southwest Kansas, do you believe that this line 
has a positive economic impact on those communities?
    Mr. Stadtler. Absolutely, and it is one thing, to your 
point, that you see when you ride the long-distance trains. You 
get to these small cities, and you see such a large percentage 
of folks that rely on the train every single day to get to 
where they need to go. They have no other transportation 
options. So I think it is vital, yes.
    Senator Gardner. And has that been part of the 
consideration that you have made when talking about your 
alternatives and possible actions you could take?
    Mr. Stadtler. It is absolutely part of the equation. There 
is no doubt.
    Senator Gardner. I think this is important that we find a 
solution to this, that we find a way that we can make this 
work. It would be devastating in the case of these communities 
to have the consequences of your testimony indeed come to 
fruition.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Gardner.
    Senator Johnson?

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman. I apologize for 
not being here. We were actually having a confirmation hearing 
on the next TSA Administrator, which was reasonably important.
    But I really want to explore technology. I am not sure who 
the best person is to ask this question. But now that we have 
got Google Maps, we have got Google's driverless car--PTC was 
passed back in 2008, 7 years ago. That is almost an eon ago in 
terms of the technology advancements. Are we really looking at 
the right technology? Are we spending money on something that 
is already obsolete before we implement it? Whoever feels 
capable of answering it, please do.
    Mr. Lauby. You know, it is very valuable technology. When 
we look at the types of accidents that it can prevent, what PTC 
really does is it is a backup for the locomotive engineer. Our 
railroad system in this country is very manual. It depends on 
the locomotive engineer to stay awake, stay alert, and make the 
right decisions, control the train appropriately. And if he 
makes a mistake, there is no backup without this positive train 
control system. So if we are interested in preventing accidents 
and putting technology in place that can prevent accidents, 
this technology is the right one to take care of human error, 
which is 38 percent of the accidents we see.
    Senator Johnson. But again, one of the issues has been the 
assigning of spectrum. This does not need spectrum. Does it? 
One of these map functions--this tied in with the Governor on a 
locomotive. Is there a simple way of addressing this problem? 
Are we just tied into an old technology solution and just 
continue to barrel down this path when there is better 
technology, there is more advanced technology that could be 
implemented far cheaper and far more quickly? Go ahead.
    Dr. Dinh-Zarr. Thank you, Senator. I will be very brief.
    PTC is actually a performance standard. It is a performance 
measure. So the railroad companies can use any technology they 
would like, and they have chosen to use this type of 
technology, which we also believe at the NTSB will save lives 
if it is implemented in a timely manner.
    Senator Johnson. Mr. Mathias, you were wanting to hop in 
here.
    Mr. Mathias. I was pointing, not to hop in, but thank you, 
Senator. I would just add that the device that you held up does 
use spectrum to communicate with the satellites. It tells it 
where it is. So it is not a----
    Senator Johnson. But it is already assigned, and we are not 
having to wait for additional. Again, I am no technologist 
here, but in numerous hearings here we are always talking about 
the assignment of spectrum. And there seems to be an awful lot 
of complication involved in setting up the PTC. Am I just 
missing something here?
    Mr. Mathias. The FCC's role is to work with the railroads 
to help them find the spectrum they need. They have chosen to 
deploy their system in a commercial band in the neighborhood of 
around 220 megahertz. There are licensees in there already. So 
what we have had to do is had to help them find people who 
would be willing to work with them on a market basis to give 
them the spectrum so that they could use it. It seems to be 
working well, and in most of the country, we understand that 
the railroads have the spectrum they need. So we do not think 
that that is an issue.
    Senator Johnson. But it does not seem particularly working 
well. This was mandated to be completed by 2015, and a lot of 
people are not going to be able to do it. I mean, this is 7 
years in implementation. It does not seem that easy.
    Again, I am still not getting an answer to the question. Is 
there a better technology that would be easier, cheaper, or 
something that would work as well, if not better, than what was 
contemplated, again 7 years ago?
    Dr. Dinh-Zarr. So the simple answer to that, Senator, is 
no. PTC is the best answer. It is the safety measure that will 
prevent these type of crashes, these type of accidents. There 
are other alternative measures, but they are reactive rather 
than predictive. So they may take place after someone has 
passed the red signal, for example, you know, when there is 
about to be a collision. So that is the importance of PTC is 
that it is a predictive type of technology or technologies that 
will prevent these crashes before they happen.
    Senator Johnson. Anybody else have anything to add?
    Mr. Lauby. Senator, I think that the spectrum issue has 
largely been worked out for the Class I's. There are still 
challenges with the commuter railroads. The information I have 
had from APTA shows that about 54 percent of the commuter 
railroads still do not have all the spectrum they need to 
operate. We have a good relationship with FCC. We will continue 
to work with them to make sure that those issues are addressed.
    Senator Johnson. OK, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Johnson.
    Just as a couple of closing notes--and by the way, I would 
ask this maybe one last quick question because there are lots 
of safety measures that can and should be taken, and this was 
referenced a little bit earlier today, but I am just curious 
and perhaps, Ms. Dinh-Zarr, you could respond to inward-looking 
cameras and their effectiveness, not only when it comes to 
determining after the fact what has happened, but also as a 
preventive measure just to keep folks paying attention in the 
locomotive. So could you comment on that safety measure and 
whether or not you see that as something that could be 
implemented that would be very effective at least in the near 
interim until some of these other technologies are able to be 
implemented?
    Dr. Dinh-Zarr. Thank you, Chairman. Thanks for the good 
question about the inward-facing cameras.
    The NTSB has recommended that inward-facing cameras are 
implemented along with audio recordings as well. And that is 
absolutely an implementation that would make trains safer. It 
would record, obviously, the happenings that we are not able to 
observe directly. It also provides more information so that we 
can prevent crashes, so we can see what happens, as you 
mentioned. So absolutely we recommend it and we think it is a 
good safety advancement to have that.
    The Chairman. Mr. Lauby, can you comment on that?
    Mr. Lauby. Yes. I believe that inward-facing cameras are 
something that can be used to enhance safety. We have been 
working with the industry as they have rolled out some of their 
systems.
    We have had a railroad safety advisory committee group that 
has tried to draft some regulations around that. Unfortunately, 
we were not able to reach consensus with that group, and so at 
this point, FRA is continuing to move forward and has, at least 
in headquarters, a draft rule that would require inward-facing 
cameras in the future.
    The Chairman. What percentage of rail accidents are human-
caused?
    Mr. Lauby. About 38 percent, Senator.
    The Chairman. And can you break down others? Equipment, 
rail?
    Mr. Lauby. Track is the second big one. That is about a 
third, 35 percent or so. Equipment and other types of issues, 
signals--that takes up the last third. But human factors is 
really the driving factor.
    The Chairman. Well, Mr. Lauby, it is pretty critical that 
we get this updated PTC report as soon as possible. That would 
be very helpful in terms of shaping the discussions we have 
about what is reasonable in terms of this technology and its 
implementation.
    Mr. Stadtler, if you would continue to update the Committee 
on your progress on the necessary ATC modifications as well.
    We want to do everything we can, obviously, to make sure 
something like this never happens again. And obviously, we know 
that there are technologies like PTC that are available. The 
question I guess is, again, how do we get those implemented and 
certified in a way that ensures that we are promoting safety 
and not making things less safe? And I think that is going to 
require a good amount of coordination from a lot of folks. So 
we look forward to hearing that report, Mr. Lauby, and hope you 
can get that to us as soon as possible, because this is 
something we are going to have to deal with in the very near 
future.
    The hearing record will remain open for 2 weeks, during 
which time Senators are asked to submit any questions for the 
record, and upon receipt, the witnesses are requested to submit 
their written answers to the Committee as soon as possible.
    I want to thank our panel today for their responses, for 
their insights, and I think this has been very helpful.
    This hearing is adjourned.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Question Submitted by Hon. Steve Daines to 
                              DJ Stadtler
    Question. In your testimony, you mention Amtrak anticipates it will 
meet the Positive Train Control (PTC) deadline of December 31 along the 
Northeast Corridor (NEC). You also mention hurdles Amtrak faces in the 
Midwest. In my home state of Montana, the Empire Builder, connecting 
Chicago with Seattle and Portland, is a critical part of our 
transportation infrastructure along the highline. More than 118,000 
people boarded and alighted in Montana last year (FY 2014). Would you 
discuss the time frame for PTC deployment on western passenger rail 
lines, specifically the Empire Builder? What hurdles remain and how is 
Amtrak coordinating with freight railroads who own the track?
    Answer. Thank you for your comments regarding the importance of the 
Empire Builder to the State of Montana. As you are probably aware, the 
host railroads that own the tracks used by the Empire Builder are BNSF 
(in Montana) and Canadian Pacific and Metra (east of St. Paul, MN and 
in the Chicago area). PTC requires wayside components installed along 
the tracks by the host, and on-board components installed on the train. 
Amtrak expects to have our locomotives equipped to operate the Empire 
Builder and all our other routes nationwide by the December 31, 2015 
congressionally mandated PTC deadline. However, we cannot comment on 
the readiness of other railroads' PTC installations. The primary 
hurdles that remain for PTC operations on host railroads are completion 
of the wayside installations by the hosts, training of Amtrak crews, 
and completion of PTC back-office servers to coordinate communications 
among all the PTC components. Amtrak requests periodic updates from our 
host railroad partners on their plans for installation and operation of 
PTC.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                            Charles Mathias
    Question 1. Amtrak's Office of Inspector General (OIG) report found 
Amtrak's most serious challenge in implementing Positive Train Control 
(PTC) was acquiring radio frequency spectrum along the Northeast 
Corridor (NEC). Mr. Stadtler mentioned in his testimony the need for 
Amtrak to migrate from the 900MHz to the 220MHz bandwidth along the 
Northeast Corridor in his testimony.
    As you stated, the Federal Communications Commission (FCC) 
facilitates spectrum acquisition. What is the FCC doing to facilitate 
spectrum acquisitions outside of the NEC? Would you please discuss 
spectrum issues for PTC in rural areas, such as along the Empire 
Builder?
    Answer. We understand from Amtrak that Amtrak will be relying on 
PTC-220, the spectrum management entity established by the Class I 
Freight Railroads, for its spectrum needs outside the Northeast 
Corridor. We understand from PTC-220 that there is adequate spectrum 
for this purpose. In particular, Amtrak has confirmed that it will be 
using spectrum from a PTC-220 member to support PTC service for the 
Empire Builder.

    Question 2. At times, obtaining spectrum from existing licenses in 
secondary markets has been unsuccessful. What are the challenges to 
acquiring the necessary spectrum while also protecting property rights 
of the spectrum holder?
    Answer. The Commission respects the rights of all spectrum holders. 
For this reason, we have directed the railroads to the secondary 
spectrum market where they can negotiate at arm's length with existing 
spectrum holders to meet their PTC spectrum requirements. The 
Commission continues to be actively engaged with all parties to 
facilitate these transactions and ensure that PTC spectrum needs are 
met.

                                  [all]
</pre></body></html>
